<html>
<title> - BIOLOGICAL WEAPONS CONVENTION PROTOCOL: STATUS AND IMPLICATIONS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    BIOLOGICAL WEAPONS CONVENTION PROTOCOL: STATUS AND IMPLICATIONS
=======================================================================




                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2001
                               __________

                           Serial No. 107-71
                               __________

       Printed for the use of the Committee on Government Reform



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                       U. S. GOVERNMENT PRINTING OFFICE
80-137                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                         Jason M. Chung, Clerk
                    David Rapallo, Minority Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 5, 2001.....................................     1
Statement of:
    Zelicoff, Alan, senior scientist, nonproliferation 
      initiatives, Sandia National Laboratories; Amy Smithson, 
      senior associate, Henry L. Stimson Center; Barbara Hatch 
      Rosenberg, project director, Chemical/Biological Arms 
      Control, Federation of American Scientists; Gillian R. 
      Woollett, associate vice president, biological and 
      biotechnology, Pharmaceutical Research and Manufacturers of 
      America; and Colonel Robert P. Kadlec, professor of 
      military strategy and operations, National War College.....     6
Letters, statements, etc., submitted for the record by:
    Kadlec, Colonel Robert P., professor of military strategy and 
      operations, National War College, prepared statement of....    57
    Rosenberg, Barbara Hatch, project director, Chemical/
      Biological Arms Control, Federation of American Scientists, 
      prepared statement of......................................    29
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Letter dated June 1, 2001................................    90
        Prepared statement of....................................     3
    Smithson, Amy, senior associate, Henry L. Stimson Center, 
      prepared statement of......................................    18
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statements of Ambassador 
      Sheaks and Ambassador Mahley...............................    73
    Woollett, Gillian R., associate vice president, biological 
      and biotechnology, Pharmaceutical Research and 
      Manufacturers of America, prepared statement of............    45
    Zelicoff, Alan, senior scientist, nonproliferation 
      initiatives, Sandia National Laboratories, prepared 
      statement of...............................................    10










    BIOLOGICAL WEAPONS CONVENTION PROTOCOL: STATUS AND IMPLICATIONS

                              ----------                              


                         TUESDAY, JUNE 5, 2001

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Putnam, Gilman, Shrock, and 
Tierney.
    Staff present: Larry Halloran, staff director and counsel; 
R. Nicholas Palarino, senior policy advisor; Jason M. Chung, 
clerk; Kristin Taylor, intern; and David Rapallo, minority 
counsel.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International Relations 
hearing, entitled, ``Biological Convention Weapons Protocol: 
Status and Implications,'' is called to order.
    In 1969, the United States unilaterally renounced the use 
of biological weapons and foreswore all aspects of an offensive 
bioweapons program. The Soviet Union also claimed no active 
interest in germ warfare. Based in part on those mutual 
assurances, rare in the bipolar cold war strategy environment, 
drafters of the 1972 Biological Weapons Convention [BWC], did 
not attempt to include verification or enforcement provisions.
    But the disclosure of a vast biological arsenal, of a vast 
Soviet biological arsenal, Iraq's use of prohibited toxic 
agents against Iran, and the emergence of terrorists eager to 
inflict mass casualties generated calls to strengthen the BWC. 
For almost a decade, discussions have been underway among the 
159 BWC signatory nations on ways to verify compliance and 
deter violations.
    Consensus on a workable addendum or protocol to the BWC has 
proven elusive. Negotiators have been frustrated by the 
inherent difficulty, some would say utter impossibility, of 
policing the proliferation of nationally occurring organisms 
and dual-use technologies so easily converted from lawful to 
lethal purposes. Many doubt arms control principles and 
regimes--regimens designed to stop missiles will work against 
microbes. Some believe the proposed protocol will provide 
little benefit in the fight against biological weapons, while 
placing an unjustifiable burden solely on those already 
committed to wage that fight.
    Working toward a target, not a deadline, of next November 
to present a complete protocol to the BWC Review Conference, 
the ad hoc group of negotiators in Geneva recently began 
considering proposals to resolve critical and controversial 
issues: expert controls, facility declaration thresholds, 
inspection triggers, the extent of onsite activities, and role 
of enhanced disease surveillance in detecting violations.
    As the negotiating intensifies, pressure will build to 
adopt a protocol, almost any protocol, if only as a symbol of 
that political will to do something about biological weapons. 
But against so insidious a threat, against a class of warfare, 
the BWC itself declares, ``repugnant to the conscience of 
mankind,'' a symbolic step is no substitute for substantive 
progress. Settling for symbolism could in fact undermine the 
political consensus and technical support needed to achieve 
tangible results.
    The previous administration said as much last September in 
testimony before this subcommittee. Ambassador Donald Mahley, 
special negotiator for chemical and biological arms control, 
told us, ``the United States will not accept a protocol that 
undermines rather than strengthens national and international 
efforts to address the BW threat.''
    Continuing our oversight of the U.S. approach to this 
critical issue, we invited the new administration and the panel 
of distinguished experts to assess the status and implications 
to the BWC protocol. We ask them to address how the U.S. 
negotiating position was formulated, how national security data 
and private property can be protected in any intrusive 
declaration and inspection regimen, and what additional steps 
might be proposed to improve BWC implementation.
    Yesterday the White House requested more time to finalize a 
response to our questions. I regretfully in some ways acceded 
to that request but felt that I would do that.
    But we will hear testimony from witnesses who bring a 
breadth of experience and depth of insight to this discussion. 
We appreciate their time and their expertise, and we look 
forward to their testimony.
    And I will say that when the administration made the 
request to defer testifying before this committee, we were 
going to cancel, and then we realized, certainly we 
acknowledged the fact that we have an excellent panel. We know 
that some of you came here to testify, and we thought that it 
is important that we proceed. So we are happy you are here. We 
are delighted to have this hearing, very unhappy the 
administration has once again requested a deferment before this 
committee.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.001
    
    [GRAPHIC] [TIFF OMITTED] T0137.002
    
    Mr. Shays. At this time I'd invite Mr. Putnam, if he has 
any statement to make, the vice chairman of the committee.
    Mr. Putnam. Thank you, Mr. Chairman. I appreciate your 
putting together this hearing and I appreciate the panel that 
you have assembled coming here today, and eagerly await the 
White House's response to your request.
    Mr. Shays. Thank you. Mr. Schrock.
    Mr. Schrock. Mr. Chairman, I have no formal statement, but 
I welcome you as well.
    Mr. Shays. Great. Well, we are about to proceed, and let me 
just get rid of some technical requirements here. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record, 
and, without objection, so ordered.
    We have a panel of five people, and we have been looking 
forward to hearing from this panel. We have Mr. Alan Zelicoff, 
senior scientist, Nonproliferations Initiative, Sandia National 
Laboratories. Did I say that right?
    Mr. Zelicoff. You did, sir.
    Mr. Shays. And we have Dr. Amy Smithson, senior associate, 
Henry L. Stimson Center. Where is that?
    Ms. Smithson. It is here in Washington, DC, sir, at Dupont 
Circle.
    Mr. Shays. And Dr. Barbara Hatch Rosenberg, a project 
director, Chemical/Biological Arms Control, Federation of 
American Scientists.
    And we have Dr. Gillian R. Woollett?
    Ms. Woollett. It's Gillian Woollett.
    Mr. Shays. Gillian Woollett, thank you--with a nice accent. 
Associate vice president, biological and biotechnology, 
Pharmaceutical Research and Manufacturers of America.
    And Colonel Robert P. Kadlec, professor of military 
strategy and operations, National War College.
    This is our only panel. We have 5 minutes. We are going to 
roll over. So you have 10 minutes if you need it. Somewhere 
between 5 and 10 we would like you to finish, and we are ready 
to go, except we have to swear you in.
    You can still see I am unhappy we have one panel instead of 
two. If you would stand up and raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record everyone has responded in 
the affirmative.
    We need a little oil for this thing here.
    You are on.

STATEMENTS OF ALAN ZELICOFF, SENIOR SCIENTIST, NONPROLIFERATION 
INITIATIVES, SANDIA NATIONAL LABORATORIES; AMY SMITHSON, SENIOR 
 ASSOCIATE, HENRY L. STIMSON CENTER; BARBARA HATCH ROSENBERG, 
PROJECT DIRECTOR, CHEMICAL/BIOLOGICAL ARMS CONTROL, FEDERATION 
  OF AMERICAN SCIENTISTS; GILLIAN R. WOOLLETT, ASSOCIATE VICE 
    PRESIDENT, BIOLOGICAL AND BIOTECHNOLOGY, PHARMACEUTICAL 
 RESEARCH AND MANUFACTURERS OF AMERICA; AND COLONEL ROBERT P. 
KADLEC, PROFESSOR OF MILITARY STRATEGY AND OPERATIONS, NATIONAL 
                          WAR COLLEGE

    Mr. Zelicoff. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Zelicoff. I am honored for this opportunity to address 
you today, and since your time is precious, I'll briefly fill 
you in on my background and then get right to the items that 
you have asked me to address.
    My name is Alan Zelicoff. I am a physician and physicist, 
and I work in the Center for National Security and Arms Control 
at Sandia National Laboratories, which is one of the three 
Department of Energy weapons labs, but we're charged with a 
broad array of tasks addressing national security outside the 
nuclear realm.
    My center, in which I am one of two senior scientists, has 
had considerable experience in the primary research and 
development in a wide array of verification technologies for 
use in most of the existing multilateral and bilateral arms 
control treaties to which the United States is a signatory. 
We're also deeply involved in the day-to-day analysis of data 
of relevance to these treaties, and provide technical support 
to both the international and national bodies responsible for 
implementation and monitoring of these treaties.
    In particular, Sandia designed and carried out the most 
extensive of all mock trial inspections for the Biological 
Weapons Convention, both in the United States and 
internationally, following its participation in very similar 
studies that predated the final negotiations and signatures on 
the Chemical Weapons Convention.
    Now, the committee has heard before from Mr. Mahley and 
others of the very--of the many problematic differences between 
verification of the Chemical Weapons Convention and putative 
verification of the Biological Weapons Convention. I'm not 
going to repeat those very important distinctions as I respond 
to the committee's charge, but in so doing, I will try to 
provide you with a technical as opposed to political reference 
point and I will refer to some of those distinctions that have 
been made previously.
    And, again, I will try to be technical, as I'm quite sure 
you get more than enough politicized information up here on the 
Hill, and as a scientist I'll try to endeavor to highlight some 
objective data and observations that I hope will assist you in 
your work.
    First, the committee asked how the United States developed 
verification policy for the Biological Weapons Convention. 
Well, we began well enough and I believe in a highly credible 
way with a series of surveys of experts to identify the 
potential unique and problematic aspects of inspections in 
support of the BWC, followed then by increasingly sophisticated 
mock inspection exercises based on questions raised during 
those surveys.
    These exercises were conducted in a variety of facilities, 
including the manufacturing facility at Department of Defense 
biological weapons defense laboratory, a university medical 
school and the most advanced aerosol-biology facility in the 
United States, and finally at an explosives testing facility, 
all of which are of potential relevance to the BWC. And this 
constitutes the entirety of the United States' experience in 
testing measures such as challenge inspections, compliance 
assurance, and familiarization visits; in other words, more or 
less the compendium of all of the approaches that have been 
advocated for strengthening the BWC. In my technical opinion, 
these trial inspections constitute as well the entirety of 
scientifically designed, well-controlled investigations into 
the utility of various measures done anywhere by anyone.
    And here I would like to issue an important caution to the 
members of the committee. When you hear claims that other trial 
inspections for the BWC resulted in successful demonstration of 
such items as managed access, compliance checking, protection 
of proprietary information, or validation of declarations under 
the treaty, be just a bit skeptical. To the best of my 
knowledge, none--and I mean none--of the other mock inspections 
that have been conducted meet any of those scientific 
requirements for trial inspections; and none save those--none 
in the United States, have been published with their 
methodologies, hypotheses and analyses for all to see.
    Trial inspections are very difficult. They are expensive to 
execute properly, and it is all too easy to conduct a trial and 
populate it with hand-picked participants to get the answers 
that one wishes to hear. We can do, and we did do much better 
than this.
    The U.S. trial outcomes, Mr. Chairman, were clear. Only two 
measures that have been proposed for the BWC, challenge 
inspections and disease outbreak surveillance and 
investigation, resulted in information that was useful for 
monitoring the BWC. The other oft-touted measures, such as 
declarations checking, resulted in so much ambiguous data that 
the inspection teams left the sites, convinced that legitimate 
activities were covers for biological weapons activities.
    There is no mystery in this. Most of the activities in the 
daily work of pharmaceutical and biodefense facilities are 
indistinguishable from activities that could be prohibited by 
the BWC. Conversely, illicit work might be done in similar 
places and is very easily hidden. And our technology, 
regrettably, at the moment does not provide us with the 
diagnostic tests that can separate evil intent from legal and 
perfectly permissible activities.
    To be concrete, a random visit to a modern pharmaceutical 
facility, for example, would be unlikely to uncover prohibited 
activities, even if they existed, because of the size and 
multiplicity of processes taking place. Rather, the very acts 
of genetic engineering, large-scale fermentation, and the 
entire array of standard operating procedures will meet any 
expectations in the pre-formed eye of the beholder.
    On the other hand, if a specific allegation were to be 
leveled, for example, production of large quantities of anthrax 
at a specific time and place, there is a reasonable chance that 
the illegal activity would be unveiled, assuming that access 
was granted in a timely fashion.
    Despite these valuable results, the process of policy 
development within the U.S. Government, protocol negotiations 
soon faltered. It is, Mr. Chairman, a not very well-kept secret 
that there was intense friction between the National Security 
Council and the entirety of the Interagency Working Group on 
Biological Weapons Control throughout the past 8 years while 
policy was under development. Essentially, nothing in the way 
of tangible policy was put forward during this time because 
one, or at most a few, low-level staffers within the NSC sought 
to suppress the results of the mock inspections, break 
interagency consensus on negotiating strategy, and impose an 
extraordinarily ill-suited vision for the BWC protocol, which 
was to make it like the chemical weapons protocol.
    Nothing could be more wrong-headed, for all of the reasons 
you heard in last September's testimony, and nothing could be 
more destructive for the future of the BWC. There is no 
question that there was a complete absence of serious 
administration attention to the negotiations taking place in 
Geneva. Otherwise these grating questions about goals and 
tactics that haunted all members of the delegation for the past 
8 years would have been resolved. That low-level NSC 
functionaries were able to force gridlock speaks volumes about 
the lack of leadership for and periodic review of the U.S. 
negotiating stance.
    Now, this brings me to the second question raised by the 
committee, which is what was the ability--what is the ability 
of the chairman's text to detect and deter rogue nations' BW 
activity? The answer is very little, and the reasons are very 
simple. The vast majority of effort in the chairman's text is 
directed at routine random visits--primarily in the West, the 
plurality in the United States--for purposes of checking on 
declarations of items and stocks which are in and of themselves 
very fluid. And it was these very types of visits that were 
simulated in the U.S. trials and that were the source of so 
much confusion and actual undermining of confidence in 
compliance during those trials.
    Once again, the NSC broke consensus on even the utility of 
disease monitoring, which was also demonstrated to be an 
effective measure, which was a most unusual state of affairs, 
because there was interagency consensus on the utility of 
disease monitoring and, sadly, abrogation of the usual 
understanding of the way interagency politics works cost the 
U.S. delegation any chance of unifying to significantly 
influence the outcome of debates in Geneva, including in the 
western group.
    Let me be clear. We were forbidden--and I mean forbidden--
to present the results of U.S. trial inspections, even after 
other countries introduced data from scientifically very flawed 
trials, and a leadership vacuum resulted.
    Mr. Chairman, I do not suggest that the U.S. trial 
inspection work constitutes a significantly large experience to 
draw final conclusions about measures that may, with further 
work, be crafted in a way to strengthen the BWC, but the design 
of these experiments done in the United States is far superior 
to those done in other countries that reported them in Geneva. 
Rather, Mr. Chairman, when combined with the reports of the 
U.N. Special Commission on inspections of Iraqi BW sites, the 
analysis of all of this information leads me to question the 
standard tenets of arms control in the context of biological 
weapons. Frequent visits to check declarations are not 
necessarily better than challenge inspections alone. Declaring 
collections of microorganisms, whose functionality can easily 
be changed from a predetermined list, is arguably worse than no 
information at all. Doing something should never be confused 
with doing something useful.
    Verification advocates, especially those in the scientific 
community such as the Federation of American Scientists, have a 
responsibility to carefully test these assertions. It is 
noteworthy that the Congress had sufficient insight to mandate 
several years ago more trial inspections, yet the 
administration just past ignored this requirement, almost 
certainly because BWC verification proponents within the NSC 
did not want to learn any lessons from those inspections.
    But the end result need not be tragic. There are at least 
two areas where I do believe substantive support to the treaty 
can be garnered, as well as meet the interests of all States 
Parties, and that would be technical cooperation in the 
identification and mitigation of infectious diseases and swift 
punishment for countries that employ biological weapons 
resulting in those diseases or support terrorist groups who 
acquire them.
    On rare but important occasions, a network, which I believe 
would cost only in the range of about $100 million over an 
entire decade, of disease reporting stations could identify the 
emergence of unusual symptoms and signs that would raise 
questions of violation of the biological weapons treaty. There 
is little doubt that the techniques of modern epidemiology 
could identify the source of the disease and distinguish 
between naturally occurring diseases and intentionally 
introduced diseases.
    To conclude, Mr. Chairman, negotiations on a protocol for 
the BWC have failed to produce a document that strengthens the 
convention or increases the security of its member States 
Parties. We must await new technologies in order to verify 
nonproliferation of biological weapons. Only a political sea 
change will permit the elimination of some of the controls that 
currently exist, such as export controls, and I would never 
advocate that. The current turmoil in Russia makes it unlikely 
that the largest biological weapons program in the world cannot 
come under control, protocol or not. But nations of goodwill 
can immediately address the pervasive problems of infectious 
disease, which is of concern to all of us, and the BWC provides 
the best possible forum for meeting that need.
    Thank you for your patience, Mr. Chairman.
    Mr. Shays. Thank you for your very provocative statement.
    [The prepared statement of Mr. Zelicoff follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.003
    
    [GRAPHIC] [TIFF OMITTED] T0137.004
    
    [GRAPHIC] [TIFF OMITTED] T0137.005
    
    [GRAPHIC] [TIFF OMITTED] T0137.006
    
    [GRAPHIC] [TIFF OMITTED] T0137.007
    
    [GRAPHIC] [TIFF OMITTED] T0137.008
    
    Mr. Shays. Ms. Smithson.
    Ms. Smithson. Given Al's summary of the missteps that have 
occurred over the past several years--am I not on?
    Mr. Shays. Yes, you are on. I need you to put the mic in 
front of you and down a little lower, and you'll be great.
    Ms. Smithson. Given Al's summary of the missteps over the 
past few years, what I'd like to do is concentrate for the next 
few moments on constructive steps forward for the United 
States. My statement is based largely on the views of over 30 
nongovernmental experts as presented in a recent Stimson Center 
report, ``House of Cards.'' Concerned about the wayward 
direction of the BWC negotiations and the U.S. Government's 
rather lackadaisical approach to these talks, the Stimson 
Center recruited stellar experts from the three types of 
facilities likely to be monitored by the BWC; namely, research 
institutes and universities, pharmaceutical and biotechnology 
companies and defense contracting firms. We asked these experts 
to brainstorm the vexing technical challenges of BWC monitoring 
and assembled a fourth group, nicknamed ``Inspection 
Veterans,'' to cull the technical lessons they that learned 
from several BWC inspection-like activities, such as the two 
U.S. BWC trials and the 1992 trilateral agreement inspections, 
which were aimed at confirming the closure of former Soviet 
biowarfare facilities.
    The academic and industry group experts separately devised 
their own monitoring strategies that they believed would work 
reliably and effectively in their respective settings. However, 
they differed on several important inspection parameters with 
what is known as the chairman's text. For example, the 
chairman's text stipulates a four-member team for nonchallenge 
visits, but academic experts asked for five to seven 
inspectors; and industry experts, for an even larger team of 
six to eight. Whereas the chairman's text would authorize just 
2 days for nonchallenge visits, the academic group believed 
that 3 days would probably be needed for large laboratories, 
and the industry group thought that 5 days would be required at 
commercial sites.
    When addressing the BWC protocol, negotiators in Geneva on 
May 7th, during the event releasing House of Cards, one of our 
industry brainstormers, Dr. Steve Projan, who is the Director 
of Antibacterial Research at Wyeth-Ayerst Research, summed up 
the inadequacy of the draft protocol's nonchallenge inspection 
provisions by saying, ``four inspectors for 2 days couldn't 
even get around all the bathrooms at my facility.''
    Quite frankly, the industry and academic experts were not 
very impressed with the draft BWC protocol. The chairman's text 
appears to have bent over backward to minimize the 
inconvenience and intrusiveness of inspections. While it is 
important to hold down the burden of inspections, skimping on 
manpower and time onsite could yield poor results. These 
experts repeatedly pointed out that while BWC inspectors must 
be able to detect noncompliance, they must also know compliance 
when they see it at legitimate facilities. BWC inspections, 
they said, should not erroneously tar all university 
laboratories, research institutes, and industry facilities with 
suspicion that they are somehow operating outside of the law 
when inspectors are not present. This can't leave question 
marks hanging over everyone's head.
    Asked to give the draft BWC protocol a grade, another one 
of our industry experts explained why the industry groups 
settled on a grade of D. That is really about the worst grade 
you can get, said Dr. George Pierce, formerly the manager of 
technology development and engineering for Cytec Industries. He 
continued to explain that sometimes an F shows a little 
innovation.
    Aside from a BWC protocol that can reliably produce 
meaningful monitoring results, other programs necessary to 
grapple with a problem as complex as biological weapons 
proliferation include, as Dr. Zelicoff has recommended, 
enhanced global disease surveillance as well as the maintenance 
of robust intelligence capabilities and defenses, and wisely 
designed and well-implemented export controls.
    I would add to that list cooperative threat reduction 
program activities to reduce the leakage of weapons know-how 
and ingredients from the former Soviet Union, over 50 
biowarfare facilities involved.
    These so-called brain-drain prevention programs are 
particularly important if former--because if former Soviet 
bioweaponeers were to succumb to job offers from terrorists or 
from governments, they could accelerate rudimentary weapons 
programs into ones capable of mass casualty attacks. An ounce 
of prevention, via a hefty budget increase for collaborative 
research grants, could help cut this proliferation problem off 
at its source.
    As for the BWC protocol, the nongovernmental experts that 
participated in the Stimson Center's brainstorming series would 
advise the U.S. Government to reject the chairman's text. Any 
deal is not better than no deal in this case. But they would 
certainly not advise the U.S. Government to abandon the 
negotiating process. All four groups of experts recommended 
additional technical research and field trials to identify and 
refine the best monitoring procedures for the BWC. For its 
part, the Pharmaceutical Research and Manufacturers of America 
long ago offered its expert technical assistance to help with 
the BWC protocol. But years later, this statement rings empty, 
since no industry field trials have been held. Therefore, it is 
incumbent upon the U.S. industry and the U.S. Government to 
mount good-faith efforts to test BWC monitoring technologies 
and strategies fully, inviting international observers into 
this process to inspire confidence that the United States will 
not desert the negotiations.
    Congress should redirect both the executive branch and U.S. 
industry to waste no time in initiating an earnest search for 
meaningful, feasible and cost-effective monitoring approaches 
to the BWC.
    Thank you for the invitation, your time, and I look forward 
to your questions.
    Mr. Shays. Thank you, Ms. Smithson.
    [The prepared statement of Ms. Smithson follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.009
    
    [GRAPHIC] [TIFF OMITTED] T0137.010
    
    [GRAPHIC] [TIFF OMITTED] T0137.011
    
    [GRAPHIC] [TIFF OMITTED] T0137.012
    
    [GRAPHIC] [TIFF OMITTED] T0137.013
    
    [GRAPHIC] [TIFF OMITTED] T0137.014
    
    [GRAPHIC] [TIFF OMITTED] T0137.015
    
    [GRAPHIC] [TIFF OMITTED] T0137.016
    
    Mr. Shays. Dr. Rosenberg.
    Ms. Rosenberg. I want to thank you for the opportunity to 
speak here for the many experts outside of government who 
support the rapid completion of a protocol to strengthen the 
Biological Weapons Convention. I chair the Federation of 
American Scientists Working Group on Biological Weapons, a 
group of professionals who have broad expertise, who volunteer 
their efforts in the hope of contributing to the control of a 
looming long-term global threat that is increasing every day 
along with the explosive growth of knowledge in bioscience and 
technology.
    My working group has monitored the course of the Biological 
Weapons Convention and contributed to every effort to 
strengthen it for more than 12 years. We have conducted trial 
inspections and held in-depth discussions with inspectors and 
inspection agencies. We've contributed nearly 50 reports and 
working papers on technical issues to the protocol negotiations 
and have organized many seminars for negotiators in Geneva. 
We've always worked closely with industry and have issued two 
joint papers with representatives of the Pharmaceutical 
Research and Manufacturers of America.
    I want to start by making sure that a central point is 
absolutely clear. We are not here to debate whether the 
chairman's text for the protocol can be relied upon to detect 
violations of the Biological Weapons Convention. In a situation 
like this one, where there are similarities between legitimate 
and illegitimate activities, no protocol or any other mechanism 
can do that. Finding smoking guns is not what the protocol is 
about and not what negotiators have ever aimed for. The United 
States and all the other parties knew this before the 
negotiations started--it started. They knew it when they 
studied the feasibility of verifying the convention and issued 
a positive report. It would be disingenuous to beat that dead 
horse now.
    Rather, the objective of the protocol is confidence 
building and transparency. Let me explain for a moment what 
transparency means in this context. Novices tend to suppose 
that it would require divulging exactly what is going on at an 
installation. That is nonsense. Experienced technical experts 
can judge from the scale, the layout, the type of equipment 
present, the ability to prevent the escape of dangerous agents 
and such factors, that can judge from these whether these 
capabilities match the alleged peaceful purpose of an 
installation and its role, if any, in civil society. Rapid 
cleanup of an installation before the arrival of inspectors is 
almost irrelevant. It might even provide a clue in itself. 
Factors like these were the ones that allowed UNSCOM inspectors 
in Iraq to recognize questionable situations almost at first 
glance.
    Getting publicizable proof was the difficult part, but I 
emphasize again, that is not the role of the protocol. Raising 
suspicions or resolving them is what the protocol is about. 
National means can then be focused on the sites or questions of 
concern. The protocol's regime would effectively complement 
national intelligence, military power and diplomacy. In a 
serious situation, the protocol would provide bases broader 
than we now have for international action.
    To achieve adequate transparency, the chairman's text of 
the protocol requires annual declaration of the sites of 
greatest potential threat, plus a variety of onsite measures: 
first, mandatory, randomly selected visits to declared 
facilities; second, visits to clarify any remaining questions 
if clarification consultations should fail; and third, 
mandatory challenge investigations anywhere.
    It's ironic that while we suspect Iraq of continuing its 
biological weapons program and we decry its refusal to allow 
U.N. inspections, the United States is poised to turn down an 
international agreement that would provide three different 
means for probing suspicious installations. Even a refusal to 
allow access in violation of the protocol would provide 
information.
    A former Deputy Director of the CIA, Doug MacEachin, has 
made a persuasive case for the deterrent effect of the protocol 
regime. In a recent article, he explains why the regime would 
prevent proliferators from using ostensibly legitimate 
facilities for illicit programs. To avoid raising suspicions, 
they would have to conduct bioweapons activities clandestinely, 
with all the attendant difficulties and risks.
    International steps to strengthen the Biological Weapons 
Convention began in 1986 during the Reagan administration. They 
continued with the positive feasibility study I mentioned 
during the first Bush administration and then proceeded into 
the protocol negotiations 6 years ago. Throughout, there was 
vocal bipartisan support from the United States. We've led the 
chorus in citing the need for action. Now with the goal almost 
within our grasp, rejection of the protocol will send a message 
to potential proliferators that will tell them that there is no 
international will to enforce the ban on biological weapons. 
Americans will pay the price as the prime target.
    Military and nongovernment experts agree that bioterrorists 
are highly unlikely to be able to launch a mass attack without 
state support. It would be foolhardy not to do all we can to 
cutoff the source by monitoring the compliance of states with 
the biological weapons ban. But this is not something the 
United States can do unilaterally.
    The protocol is the available tool, and that's why our 
European and other allies are so angered and dismayed by the 
U.S. stance. Had the United States stood with its allies and 
presented a united front at the negotiations, the chairman's 
protocol text would be stronger now. Had the United States not 
demanded many weakening concessions, the text would be better. 
But one thing is clear. The protocol does not suffer from any 
lack of technical information. The problems are political, not 
technical. Although the United States submitted no reports on 
trial onsite activities, 12 trials have been reported by other 
countries, most of them U.S. allies. And some of the trials 
took place at facilities belonging to the very same 
corporations that are major players in the United States.
    I have a table which may be projected here, but I believe 
the Members have copies, and you can't read it anyway, but you 
have copies. It's a 3-page table which shows the trial visits 
that have been carried out. I will just point out that many of 
the trials involved more than one country or included foreign 
observers, and no U.S. trial will have any credibility that 
doesn't do the same.
    All the trials that have been carried out concluded that 
the visits would be effective in strengthening the convention 
and increasing confidence in compliance, and that confidential 
information could be protected at the same time.
    In addition to the trials, there are copious data from the 
many different national and international inspections that are 
carried out routinely at sites relevant to the protocol, both 
here and in many other countries. The chairman's text meets all 
the essential demands of U.S. industry. It provides more 
safeguards for confidential information than the Chemical 
Weapons Convention, which covers many of the same facilities 
and to which we are already a party.
    As for export controls, the rhetoric of the text may please 
the critics of the Australian Group. The Australian Group is a 
cooperative mechanism for controlling dual-use chemical and 
biological exports. But the substance of the chairman's text is 
fully in line with the western position. There are only 
guidelines, no hard obligations regarding exports. Each state 
party has full discretion over every measure suggested in the 
text.
    In closing, I'd like to point to several additional actions 
that need to be taken to supplement the protocol in controlling 
biological weapons. These are described in my written 
testimony, and there's no time here now. One of these actions 
is a program for effective global surveillance of emerging 
diseases. This program, proposed by an alliance of the World 
Health Organization and several other health groups, known as 
AllAID, Would fulfill the obligations of parties to the 
convention to ``cooperate for the prevention of disease,'' to 
use the words of the convention.
    To do this, the proposed program addresses the specific 
goals already agreed by the protocol negotiators, but there is 
little hope of funding this necessarily multilateral program 
without the incentives that the protocol would provide. And I 
hope in the question period we will have a greater opportunity 
to discuss this program. Thank you very much.
    Mr. Shays. Thank you very much, Dr. Rosenberg.
    [The prepared statement of Ms. Rosenberg follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.017
    
    [GRAPHIC] [TIFF OMITTED] T0137.018
    
    [GRAPHIC] [TIFF OMITTED] T0137.019
    
    [GRAPHIC] [TIFF OMITTED] T0137.020
    
    [GRAPHIC] [TIFF OMITTED] T0137.021
    
    [GRAPHIC] [TIFF OMITTED] T0137.022
    
    [GRAPHIC] [TIFF OMITTED] T0137.023
    
    [GRAPHIC] [TIFF OMITTED] T0137.024
    
    [GRAPHIC] [TIFF OMITTED] T0137.025
    
    [GRAPHIC] [TIFF OMITTED] T0137.026
    
    [GRAPHIC] [TIFF OMITTED] T0137.055
    
    [GRAPHIC] [TIFF OMITTED] T0137.056
    
    [GRAPHIC] [TIFF OMITTED] T0137.057
    
    [GRAPHIC] [TIFF OMITTED] T0137.058
    
    Mr. Shays. Dr. Woollett.
    Ms. Woollett. Good afternoon. My name is Dr. Gillian 
Woollett. I'm the associate vice president for biologics and 
biotechnology at PhRMA, the trade association for research-
based pharmaceutical and biotechnology industries in the United 
States. We are pleased to have the opportunity to share with 
this subcommittee our industry's views on the development of a 
protocol to the Biological Weapons Convention. PhRMA 
appreciates the very complicated challenge that the signatories 
to the BWC face in trying to assemble a protocol that provides 
any level of confidence for either compliance or verification 
of the BWC. We welcome the opportunity to work with the 
subcommittee----
    Mr. Shays. Doctor, you can just move yours. I rarely have 
the occasion to ask someone to move it away. Just step it 2 
inches away.
    Ms. Woollett. We welcome the opportunity to work with the 
subcommittee as you explore and deliberate these very important 
issues. PhRMA concurs with the goals and objectives of the BWC 
and has been actively supporting efforts to strengthen this 
convention by the inclusion of effective measures to help 
enhanced compliance with its objectives and to reduce the 
threat of biological warfare.
    Indeed, the global pharmaceutical, chemical and 
biotechnological industries join others in their belief that 
biological weapons represent a serious and increasing danger to 
people around the world. Since very similar microorganisms to 
those used for legitimate purposes could be misused as weapons 
of mass destruction, we accept that a protocol strengthening 
the BWC cannot exempt private industry.
    However, the pharmaceutical and biotechnology industry does 
not make biological weapons. Our very purpose is the opposite. 
We make products to counter unmet medical need, of which a 
substantial proportion continues to be infectious disease. To 
compromise our ability to develop medicines or to undermine 
patients' confidence in those medicines without a definable 
level of confidence in the proposed protocol would be a tragedy 
for public health.
    The chairman's text unduly targets vaccines and culminates 
in requirements that not only compromise our industry's ability 
to research and manufacture medicines but also establishes 
mechanisms to expose confidential business information.
    Measures strengthening the BWC should ensure the inhibition 
of any misuse of microbiology without impairing its legitimate 
lifesaving uses. We should encourage development in areas such 
as health care, agriculture, nutrition and the environment. Our 
concerns with the protocol include the scope of declarations 
and onsite activities and the degree to which the burden is 
balanced by its value for arms control purposes.
    Declaration formats must be simple and without requirement 
for disclosure of any confidential business information, and 
their use must be apparent in impeding biological weapons 
creation. Unfortunately, these criteria are not met in the 
current chairman's text. The current triggers in the chairman's 
text are ambiguous and the focus is on those facilities with 
greatest legitimate capabilities.
    Furthermore, the declarations are extensive. The format is 
confusing, and they will require inclusion of confidential 
business information.
    PhRMA urges that clarification procedures between the 
International Secretariat and the state party be established in 
anticipation of questions about declarations. However, we 
believe these procedures should not require any additional 
onsite activities.
    Since the nature of microbiology is such that it is often 
easy to remove traces of any development, manufacture, or 
storage of a biological weapons agent, any routine onsite 
activity is not a useful concept under the protocol. However, 
our industries are sympathetic to the concept of nonroutine, 
nonrandom familiarization or educational visits, provided they 
are voluntary and under full control of the company visited.
    In the event of alleged serious violations, it may be 
appropriate for the international community to conduct a 
challenge inspection, but malicious or frivolous claims of 
violations must not precipitate intrusive onsite activities. 
Challenge inspections must be conducted according to an 
established due process that is evidence based. Strict managed 
access must be employed, and the inspected site must have the 
final determination of what is proprietary information. If no 
evidence of a violation is found, this fact must ultimately be 
reported by the International Secretariat.
    The global pharmaceutical, biotechnology and chemical 
industries have tried to participate actively to reduce the 
threat of biological weapons. Working globally with our 
respective governments and international negotiators, our 
companies believe that our industry can help strengthen the BWC 
and reduce the serious threat to people around the world. 
Unfortunately, the chairman's text, as proposed, strongly 
suggests that our input to date has fallen on deaf ears.
    As you deliberate this difficult topic, we urge that you 
include the needs of patients and their intimate relationship 
and confidence in our companies in the equation. More and 
better medicines are dependent on the ongoing research and 
manufacturing capabilities of the U.S. pharmaceutical and 
biotechnology industries. A global leadership is a credit to 
the United States and not something to be intruded upon in the 
search for biological weapons, which are clearly an anathema to 
our industry. One of our industry's greatest contributions to 
public health has been human vaccines, and yet vaccines find 
themselves in the bull's-eye of this protocol. How can that 
help global security? Thank you.
    Mr. Shays. Thank you, Dr. Woollett.
    [The prepared statement of Ms. Woollett follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.027
    
    [GRAPHIC] [TIFF OMITTED] T0137.028
    
    [GRAPHIC] [TIFF OMITTED] T0137.029
    
    [GRAPHIC] [TIFF OMITTED] T0137.030
    
    [GRAPHIC] [TIFF OMITTED] T0137.031
    
    [GRAPHIC] [TIFF OMITTED] T0137.032
    
    [GRAPHIC] [TIFF OMITTED] T0137.033
    
    [GRAPHIC] [TIFF OMITTED] T0137.034
    
    [GRAPHIC] [TIFF OMITTED] T0137.035
    
    Mr. Shays. Colonel Kadlec.
    Colonel Kadlec. Thank you, Mr. Chairman, members of the 
subcommittee. It is a great pleasure to be here today, and it 
looks like I am the cleanup batter for today's panel. But 
before I begin my formal remarks, I'd like to remind you that I 
am here on my personal auspices, and my views are solely my 
own, not of the U.S. Government, Department of Defense, 
National Defense University, or the U.S. Air Force.
    To give you a little background in terms of my reason to be 
here is that I served on the U.S. Delegation to the Biological 
Weapons Convention from 1993 to 1996, participated in several 
of the aforementioned U.S. department-sponsored trial 
inspections, and also served as a U.N. Special Commission 
inspector in Iraq in 1994, 1996 and 1998.
    Mr. Shays. And, Colonel, right now you are a professor at 
the War College?
    Colonel Kadlec. That's correct, sir.
    Mr. Shays. So you are coming as a professor from the War 
College with your own views? Fine. Thank you.
    Colonel Kadlec. Thank you. To maybe address specifically 
the issues that you raised in the letter that I received to 
attend today's panel discussion, the first and foremost was how 
did the United States develop a verification policy for the 
U.S. BWC protocol? I think Dr. Zelicoff's comments touched on 
maybe some of the more finer points, but I think in quick 
summation, the fact is we really didn't have a clear 
articulated strategy or approach for the negotiations, and that 
clearly had a partial paralysis on the events on the ground in 
Geneva. It clearly hamstrung the delegation to either accept or 
reject positions that were being offered. It certainly limited 
our ability to project positions in that--into national fora. 
And more significantly, I think it had an impact on limiting 
the kinds of things we could be doing back in the States, 
particularly national trial visits, that would have helped us 
understand the implications and consequences of some of these 
measures as being proposed.
    I think it's just worthy to note that the Department--or 
Department trial visits that were conducted were sponsored by 
specific government departments rather than the U.S. Government 
at large, principally because there was no consensus, and 
certainly there was no endorsement of those trial visits and 
the reports and subsequent findings that came out of those. So 
in the end I think, simply put, we were very limited in what we 
could do.
    As far as the current draft protocol and whether it would 
be possible or whether it would be able to detect or deter 
rogue nations or terrorist biological weapons activity, I would 
judge that to be a low probability. Two principal reasons, and 
one is inherent in the protocol and the other one is inherent 
in, if you will, the nature of biological arms. First, the 
protocol is certainly not comprehensive in its inclusion or 
coverage of facilities of concern. I think it's noteworthy that 
universities and many other facilities, food processing 
facilities, are not included in that, and that there are 
certain, if you will, arbitrary distinctions or criteria that 
exclude R&D facilities or even small possible production 
facilities. It's still a matter of concern but would not be 
necessarily a matter of disclosure--voluntary disclosure 
through this protocol.
    The second part is, it's certainly the ambiguities that are 
inherent in these activities. I always remind myself that the 
original drafters of this convention back in the mid-seventies, 
essentially seventies, did not include verification measures, 
not because they didn't want to, but because it wasn't easy, 
and certainly not clear then. And I would suggest that in some 
ways it is less clear today because of the advances in 
biotechnology that really provide great efficiencies and great 
capabilities in facilities that were not considered, or even 
unheard of back in the 1970's.
    So with that as a backdrop, I would suggest that at least 
for detection purposes, we may be better off, as Dr. Rosenberg, 
to rely on our national capabilities within the intelligence 
community. And maybe that's where we would be better served to 
make investments to strengthen those capabilities that could 
detect those proliferators pursuing these weapons, particularly 
in the human intelligence side.
    The issue of deterrence is a little more complicated, 
principally because, as you well know, deterrence is based on 
not only a capability but also a credibility of whatever tool 
you have, particularly in this case the protocol, and that 
would be the specific measures that it offers and the 
procedures that it offers as well. It goes without saying, it 
would probably--if it's unlikely to detect a cheater, it's 
probably unlikely, or very low probability, to deter a cheater. 
In that sense, I think, again, we may look to other investments 
to see if we can bolster our capabilities. And, again, if you 
look at this protocol as part of a larger national strategy, 
the technical side of this is such that I would probably defer 
to other means to give us confidence in whether or not the 
treaty is being complied to.
    Your issue about the extent to which the protocol will 
improve verifiability of the BWC, I think it's a--I would say 
it would be bold to advocate, and I think it is the consensus 
here that it's probably not verifiable, but I would point out 
that there also may be an unintended consequence of this 
effort. And that is principally in if a state's party complies 
with the protocol, does that necessarily mean that they comply 
with the treaty? And that is a potential sleight of hand that 
could be used by countries that are certainly suspected of 
those intentions. Clearly in the course of negotiations, Iran 
was one country that tried to make a case--and it will be 
unclear until the end game whether they went out on this--that 
they could somehow trade, if you will, their compliance with 
the protocol with the abolition of multilateral export 
controls. And that is just one possible outcome that needs to 
be considered.
    Finally, your last point is related; specifically, what 
additional mechanisms could be used to strengthen the 
effectiveness and improve implementation of the Biological 
Weapons Convention. And there are two. I would like to endorse 
the comments made earlier by Dr. Zelicoff and Dr. Rosenberg on 
the fact that it seems like an odd paradox that the treaty that 
is entirely devoted to the deliberative use of disease as a 
weapon does not have any provisions to either create, expand, 
or mandate systems to monitor disease occurrence. And this is 
clearly one area that probably deserves more consideration and 
certainly would be one that would--could objectively not only 
strengthen our nonproliferation goals, but certainly strengthen 
our national and international public health objectives as 
well.
    My last comment is directed to an issue that has been 
touched on lightly here, but certainly where my experience 
weighs heavily, and that is through the United Nations Special 
Commission. I would just like to point out that the 
verification of experts exercise that was conducted in the 
early nineties, that basically produced the foundation for the 
draft protocol and identified 21 possible measures both onsite 
and offsite that could be used to strengthen the compliance 
with the treaty, were actually all employed during the 
experience in Iraq.
    What is interesting to note, and I guess in part it's maybe 
part of the cognitive distance that was existing in the U.S. 
Government, but certainly the fact that chronological 
experience was that they were parallel events that sometimes 
operated, I won't say completely independently, but certainly 
sometimes detached, and that is a systematic comprehensive 
review of the UNSCOM lessons: clearly what worked, what didn't 
work, and clearly making that as a benchmark to assess whether 
or not a future protocol--whether this protocol or any protocol 
could address these purposes.
    Until, I think, we assess that and certainly conduct more 
government-sponsored trial visits, it will be very difficult, I 
believe personally, to negotiate or commit to any protocol that 
is both sensible or effective. Thank you, gentlemen.
    Mr. Shays. Thank you, Colonel.
    [The prepared statement of Colonel Kadlec follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.036
    
    [GRAPHIC] [TIFF OMITTED] T0137.037
    
    [GRAPHIC] [TIFF OMITTED] T0137.038
    
    [GRAPHIC] [TIFF OMITTED] T0137.039
    
    [GRAPHIC] [TIFF OMITTED] T0137.040
    
    [GRAPHIC] [TIFF OMITTED] T0137.041
    
    Mr. Shays. Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. Again, thank you all 
for being here. This is a frightening subject to me, and it's 
something I had not thought much about until I came to 
Congress. I was privileged to serve in the Navy for 24 years, 
and what we worried about in Vietnam were the Viet Cong; we 
didn't worry about chemicals and biological-type things. But I 
think the real enemy we're going to have now is that, and I 
don't know how the devil we get our hands around it, and I am 
concerned by that.
    I have a comment for the Colonel, but I wanted to start 
with Dr. Zelicoff. When the administration officials last 
appeared before this subcommittee, one of the witnesses--I 
believe it was Ambassador Mahley--said, ``the United States has 
never judged that the protocol would produce what is to us an 
effectively verifiable BWC.''
    In other words BWC is not verifiable. Help me understand 
what the technical meaning of ``effectively verifiable'' is and 
to what extent is it verifiable?
    Mr. Zelicoff. You will never get a U.S. Government agency 
to define what ``verifiability'' means. I have tried.
    Mr. Schrock. I'm sure.
    Mr. Zelicoff. But I do believe that there is consensus, and 
I would hazard a guess there is even a consensus on this panel 
that verifiability has a certain minimalist standard, and that 
is that it's more likely than not to catch a cheater before 
he's able to do something disastrous with his biological 
weapons and--and this is equally important and always ignored--
more probable than not, to not accuse somebody of violating the 
treaty when in fact no violation has taken place.
    Now, as a scientist, we refer to those things as--we have 
terms for them. We call it the sensitivity and the specificity, 
but you can think of it as the likelihood that you miss 
something and the likelihood that you make a mistake by falsely 
accusing somebody.
    With that minimalist definition--that is, both being able 
to have a more probable than not standard for finding a cheater 
before he's able to do something significant--I don't think 
that there is any question that the treaty does not--or the 
protocol does not meet that verifiability standard.
    With regard to the more problematic issue, that is, falsely 
accusing somebody, what we learned very clearly in the U.S. 
trial inspections--which I have to say were conducted in a 
scientifically credible way, meaning that they were blinded, 
meaning that no one who participated as an inspector knew 
anybody who was at the inspected facilities, and other such 
reasonable precautions to prevent bias--what we learned clearly 
from those was that the probability of coming up with an 
ambiguous result--that is, walking away with less confidence 
that the site was in compliance--was actually the biggest 
problem.
    In other words, it is highly likely that if a properly, or 
improperly I should say, politically motivated inspection team 
came to a U.S. pharmaceutical facility they could see anything 
they want to see and make a story that is completely in their 
view credible for biological weapons violation even when no 
such violation is taking place. That was precisely what 
happened to us when the U.S. trial inspections took place at a 
small vaccine facility in Michigan, a very modest facility by 
comparison to the average pharmaceutical facility in the United 
States, and indeed the report of the team, which we were not 
allowed to release in Geneva, was that the team was less 
confident that the facility was in compliance after than before 
visiting.
    So on those two standards of verifiability I think the 
trial inspection experience is clear, false positives and false 
negatives are very, very likely. Thank you.
    Mr. Schrock. If it isn't verifiable, why have a protocol?
    Mr. Zelicoff. That is not for me, I assume.
    Mr. Schrock. It will stop shortly.
    Mr. Zelicoff. It depends on what your goals are of course. 
If your goal is verifiability, then you should not believe or 
sign up to a protocol like this because it doesn't deliver the 
goods. If the goal is something less than verifiability; for 
example, improving confidence, then one can select among the 
measures that are available that I think over time would 
generate an increased belief of the credibility of the 
enforcement of the treaty. But now we start to get into 
judgments that as a scientist I am not prepared to make.
    Mr. Schrock. Colonel, I am probably going to paraphrase 
here and I like a comment I think you made, you said rogue 
nations are likely not to use chemical-biological warfare. Did 
I misread you? I thought I would sleep better tonight because 
of that.
    Colonel Kadlec. No, sir, I did not say that and I wouldn't 
endorse that at all. My apologies if I left you with that 
impression.
    Mr. Schrock. Well, I'm glad you cleared that up, but I'm 
sorry it's not true.
    That's all, Mr. Chairman.
    Mr. Shays. We have had two visits to Geneva, we have had 
one other hearing and we have had a lot of research done and we 
have had the GAO and others report to us on this issue, and I 
am left with a feeling myself after this brief kind of 
introduction to this issue, I don't honestly know how you 
verify. And as we start to go through the panel I got the 
feeling, Dr. Zelicoff, that you don't like the BWC protocol as 
written and that you wonder whether you can verify. Dr. 
Smithson, I get the feeling you don't like the protocol as 
written but you think something needs to happen. Dr. Rosenberg, 
I get the feeling that you are very strongly supportive of the 
protocol and you think it is clearly the way to go. And Dr. 
Woollett, I get the sense that you don't want verification 
inspections. That's the general sense I get. And Colonel, I get 
the sense that you don't think the BWC protocol will work. That 
is the general sense. So it is kind of like in a scale here, 
panel, three against one--kind of against but something needs 
to happen, and one and four.
    Ms. Rosenberg. Can I correct what you said about me? It is 
not exactly correct.
    Mr. Shays. I understand. It may be that all of them aren't 
correct. By the way, any question that I ask one any of you are 
more than welcome to respond to. Before you take that, maybe 
any comments that any of you wanted to make to the previous 
questions that were asked, if you wanted to jump in to respond 
to the questions that my colleague asked. Why don't we start 
there and then we will deal with my summation of where you 
stand. Anybody want to jump in on anything that was asked?
    Ms. Rosenberg. On the question he asked?
    Mr. Shays. Yes.
    Ms. Rosenberg. Yes, you asked why--if verification is 
impossible why bother with the protocol? Because the protocol 
does something else, as I tried to point out. It can raise 
suspicion or it can allay suspicion, it can increase 
confidence. It increases transparency, and this is something 
that is not verification in the strict sense, where you prove 
that there is no violation or full compliance, but it adds to 
all the other national capabilities that we have. It is an 
additional tool.
    It has been pointed out there is a web of deterrence that 
involves a series of different things like export control and 
national intelligence, military preparedness, defense, and the 
protocol is another tool in that web which gives us additional 
capabilities and feeds in so that it helps us to focus our 
intelligence on the facilities that might not have been 
recognized as being a problem but that something might come up, 
or to eliminate bothering with some that we feel convinced are 
OK as a result of protocol procedures.
    Ms. Smithson. I would like to address the question about 
whether or not we can go forward and should we go forward with 
this. At present we are dealing with from the U.S. perspective 
really two data points. The two trials that the United States 
has conducted I think are certainly the most robust ones that 
have been conducted internationally. And what worries me is we 
have incorrect data points in that we seem to be throwing up 
our hands at this juncture. When you can't figure out 
something, quite frankly you try harder to figure it out. And 
the technical experts who sat at our table were certainly very 
familiar with what inspections were all about, especially those 
from industry. Those are individuals who have inspectors in 
their plants all the time. They get no-notice inspections. They 
get inspectors there for weeks at a time and they know how to 
make things work for the host facilities and for the 
inspectors. And I'll take their advice on this. They are 
encouraging the U.S. Government and industry to actually get 
out there and do the grunt work required to figure this out, 
conduct the field trials, work harder.
    Ms. Woollett. I think I have to make a comment at this 
point that PhRMA has expressed a willingness over a number of 
years. But what are we actually modeling? If we have to model 
some method by which we prove ourselves innocent for the 
reasons that Al Zelicoff has discussed earlier, that is simply 
not doable. Our capabilities, should we be so inclined, are so 
much more than would be needed. There is no way we can prove 
that we haven't ever made a BW. We can affirmatively show what 
we do indeed do. We can show we can make medicines but we can't 
show that we haven't used the facilities for illicit purposes. 
So the moment you have a lack of presumption of innocence, no 
facility, however capable, can prove it hasn't made BW. So I 
think this is the fundamental quandary as to what actually 
inspections are for. That's what the text doesn't resolve, 
particularly in terms of its routine inspections.
    Mr. Shays. Dr. Rosenberg, you wanted to respond to my 
characterization.
    Ms. Rosenberg. Yes. You said that I, and I presume my 
group, are strong supporters. We are supporters of a protocol. 
The chairman's text is a good deal weaker than we would like to 
see, much weaker. We know there could be a much better protocol 
out there, there could have been. The problem though is not 
technical. It is political. This is the best protocol we can 
get at this time and for some time to come, and it is better to 
have something than nothing because otherwise we are telling 
proliferators that they can go ahead with impunity.
    Mr. Shays. I am going to use Dr. Zelicoff's comments to 
generate dialog with the four of you. It doesn't mean, Dr. 
Zelicoff, you can't comment either. First I am going to read: 
You said, doing something should never be confused with doing 
something useful. But--this is a long paragraph but I would 
like you to listen to it and then I would like you to comment 
on it. You were referring, I am on page--no pages, doctor; you 
automatically drop from an A to a B if I were grading you. I 
have no pages on this. But at any rate, despite these valuable 
results the process of policy development with U.S. Government 
protocol negotiations soon faltered. You say it is not a very 
well kept secret that there was intense friction between the 
Security Council by the entirety of the Interagency Working 
Group on Biological Weapons Control through the past 8 years 
while the policy was under development. Then you say 
essentially nothing in the way of tangible policy was put 
forward during this time because one or at most a few low level 
staffers within the NSC sought to suppress the results of the 
mock inspections, break interagency consensus on negotiating 
strategy and impose an extraordinarily ill-suited vision for 
the BWC protocol which was make it like the Chemical Weapons 
Convention.
    I'm still going to read on. Nothing could be more wrong-
headed for all the reasons that you have heard in last 
September's testimony; nothing could be more destructive for 
the future of the BWC. There is no question that there was a 
complete absence of serious administration attention to the 
negotiations taking place in Geneva. Otherwise, the grating 
questions about goals and tactics that haunted all members of 
the delegation for all of the last 8 years would have been 
resolved. That low level NFC functionaries were able to force 
gridlock speaks volumes about the lack of leadership for and 
periodic review of the U.S. negotiating stance throughout most 
of the 1990's.
    I will just tell you this summarizes my feeling about my 
observation of the negotiations that have taken place during 
the time that I followed, and I have no sense ultimately of 
what we hope we can achieve, frankly. But let me ask you to 
comment on this, all of you. First, Dr. Zelicoff, do you still 
believe this?
    Mr. Zelicoff. I do, sir.
    Ms. Smithson. I would applaud Dr. Zelicoff's candor, as 
someone who spends a great deal of time watching the U.S. 
Government attempt to make decisions and often bumbling what 
they do. His description here I believe is right on target, so 
I will agree with it in total.
    Ms. Rosenberg. I did talk about this in my written 
testimony. I agree. I think we all recognize that there was no 
high level leadership during the course of these 6 years of 
negotiations, that although President Clinton issued several 
statements in support of the goal, no one at the top levels 
pushed it. It was left in the hands always of lower level 
officials. And in the interagency group each one had his own 
turf to protect and nobody took the common interest as an 
overview, and I think that is a very sad commentary on our 
government.
    Mr. Shays. Dr. Woollett.
    Ms. Woollett. I think your question of what do you achieve 
is absolutely critical because this will be a balance of what 
is put at risk, what is the burden, what is the cost on 
whomever verus what you achieve. We're able as industry to 
assess the risk to our patients, to our products. What we don't 
understand is the arms control aspects. What would this do for 
global confidence that we wouldn't have if we were left with 
just the treaty, which, remember, is those people who've agreed 
not to do this stuff in the first place. So we are only talking 
about a subset of the world anyway.
    So our question is fundamentally the same as yours: What 
would you achieve with this protocol that you wouldn't have 
otherwise?
    Colonel Kadlec. Sir, I would concur with Dr. Zelicoff's 
assessment. I would add, and again to expound on the point of 
the chemicals weapons inspection, that there seem to be, and 
again this is one of the cultural-technical differences between 
the two communities of chemical versus biological processes 
that seem to get often blurred, which is somehow you can take 
it by direct extension and extrapolate it to the biological 
processes, which I think is fallacious, and I think Dr. 
Zelicoff pointed that out.
    I would also add that there was a certain level of idealism 
here that somehow you can go much further than you could with 
this. And I would like to go back and address the point made 
earlier, the question asked earlier about why have a protocol 
and certainly Dr. Smithson's point about specifics as it 
relates to doing national trial visits. You may or may not 
recall a place called Al Hakam, but that was a facility that 
the Iraqis declared in 1991 after the Gulf war. It was the site 
of intense scrutiny by the U.N. Special Commission over a 
number of years, thought to be very suspicious because of the 
nature of the layout, physical features. It was dispersed, 
there were unground bunkers, there were anti-aircraft sites 
around it. But it was not until 1995, despite numerous 
challenge, routine monitoring inspections of that facility that 
truly the clear intent behind that was known based on Hussein 
Kamel's defection. And I just highlight that as one of those 
key points, that if you use traditional arms control 
approaches, as we do in other disciplines, I think you will 
come up short. And in fact in some ways you may wish to reserve 
those capabilities. And when you look at a protocol it would 
seem the challenge mechanisms that allow you to get to the kind 
of situations that were encountered in Sverdlovsk in Russia in 
1979 or certainly if there were an equivalent occurrence of the 
use of chemical weapons in Iraq or against Iranians, that there 
would be a mechanism outside the U.N. Security Council to 
ensure that those things could be promptly and fully 
investigated.
    Mr. Shays. You made reference to an individual. Was that 
one of Saddam Hussein's son-in-laws?
    Colonel Kadlec. Son-in-laws.
    Mr. Shays. And what we learned from both of them coming 
forth was that there was a site that was not disclosed?
    Colonel Kadlec. Well, sir, Al Hakam was disclosed. It was 
declared by the Iraqis, but the true intent and purpose behind 
that site was never known.
    I left out one important piece of the story because during 
the course of the 4-year, if you will, monitoring by UNSCOM the 
Iraqis actually were building a new site on that facility that 
gave it an incredible fermentation capacity of 50,000 liters 
and this was done under the watchful eyes of UNSCOM. It was 
given a nominal cover, if you will, of being a single cell 
protein facility to make cattle feed, for which everyone 
suspected that was not indeed the case but the smoking gun was 
elusive, and even under the most stringent provisions that were 
ever created for arms control through the UNSCOM and through 
the U.N. Security Council Resolution 687, that was not really 
appreciated until someone from the inside came out to basically 
disclose what the purpose of that facility and site was.
    Mr. Shays. We do have a clock on now, but Mr. Tierney has 
joined us and I am eager to have my colleagues jump in. But let 
me make sure that I am not, that we are spelling it out. Is it 
your testimony before us that without an insider you could 
basically disguise the use of the facility even with the 
inspections?
    Colonel Kadlec. Sir, again that's the practical experience 
that came out of that episode. I think again Dr. Zelicoff 
touched on the point of intent, that it is very difficult to 
look at a fermentation kettle that is used for vaccines that 
may well be used in 7 days or 7 hours after the inspection team 
leaves to produce something other than a benign vaccine, and 
again it is the dual use nature of the problem.
    Ms. Rosenberg. I have talked with some of the inspectors 
who entered that single cell protein plant, so called, and who 
said they only had to step inside to recognize that this was 
something much more than a single cell protein plant. They 
didn't know exactly what it was and we did not find that out 
until after the defection. But the point I would like to make 
is that we knew Iraq was up to something. We knew we had to 
keep our eye on them. And that is the kind of thing that the 
protocol can do. It will not give us the full answer, but the 
important thing is that we watch them so they don't go beyond.
    Mr. Shays. Dr. Smithson, did you have a response? Dr. 
Rosenberg, I am sorry, I am going to ask you to repeat your 
last point. I got distracted.
    Ms. Rosenberg. I said that I have spoken with inspectors 
with UNSCOM who entered that single cell protein plant that Bob 
mentioned and they could tell immediately that plant was 
something more.
    Mr. Shays. I got that part but then you made another point.
    Ms. Rosenberg. Yes, and even though they did not know 
exactly what it was for they knew that the Iraqis were lying. 
They knew they were up to something and they knew enough to 
keep their eye on it and to keep looking and to focus on 
preventing them from using that plant for some illicit purpose, 
which they succeeded in doing.
    So I think this is a good example of what the protocol can 
do. It may not give us the full answer but it raises suspicions 
that will allow us to keep our attention on possible trouble 
points.
    Mr. Shays. I will let both of you respond, but I have an 
observation, that I am wondering if only the human intelligence 
can detect the wrongful intent of violating the BWC. In other 
words, there are building signatures and you can't determine 
intent, say, from a satellite photo or hear intent on an e-mail 
interception. It seems to me that you almost need an insider to 
say bad things are happening here. Without that insider you are 
going to have a problem.
    Ms. Rosenberg. An insider or an inspector from a regime 
like the protocol would set up.
    Mr. Shays. Because I think that an inspector, they close 
down the operation.
    Ms. Rosenberg. But that doesn't matter, you see. We are not 
doing anything I believe at this plant that Bob mentioned. You 
don't have to see it operating. It's capabilities that count. 
It was much too, what's the word, it had capability that 
wouldn't be needed to make single cell protein. It was much too 
elaborate for that. And the inspectors immediately recognized 
that this could be used for something other than what they said 
it was.
    Mr. Shays. I am going to jump both of you for a second, but 
the bottom line is isn't that the problem. My limited 
understanding of this issue is if you have dual uses it can be 
used for something other than a legitimate use.
    Ms. Rosenberg. That's right, but the point is you have to 
declare in a regime--like the protocols, you have to declare 
what is the use and there's evidence. If you say you're making 
a pharmaceutical you can find out what's on the market that is 
coming out of that place, you see. So you have a lot of other 
evidence with which to compare the capabilities and if they are 
beyond what are needed that raises suspicions. So all right, 
you don't bomb them, but you keep an eye on them.
    Mr. Shays. Mr. Tierney.
    Mr. Tierney. I just want to followup on that. You go on. I 
am looking at some of the comments that Ambassador Mahley made 
not too long ago. There is a real value in increasing the 
transparency associated with biological activity. This could in 
our view complicate the efforts of countries to cheat on their 
Biological Weapons Convention obligations. The United States 
believes investigations are one of the most essential elements 
of a BWC transparency regime. Actually talking to scientists 
and production workers on the ground as well as observing the 
atmospherics at a facility are ways for experienced observers 
to detect anomalies. One can never discount either the 
whistleblower prospect of an employee or the ineptitude or a 
coverup of an illicit activity. While there is no likely way to 
judge the likelihood of such an outcome, the deterrence 
component is useful since it complicates the life of a 
potential proliferator.
    I see in that what you are talking about, but I also wonder 
what has changed in the Bush administration to all of a sudden 
back off these comments made by the Ambassador. What's happened 
in the interim on that? Why is that still useful? We understand 
that they are not fool proof and they're not absolute, but 
there are advantages in moving in this direction. And what has 
changed on that and why would they pull their witnesses today, 
who would be able to expand on that? And Ambassador Mahley 
might be able to tell us if in fact he has had a change of 
heart there.
    Ms. Rosenberg. Well, I think we have to consider the 
possibility that this administration's policy here is not 
determined by the logic of this particular situation but by an 
ideological view of arms control in general, particularly 
multilateral.
    Mr. Shays. Dr. Rosenberg, in all fairness before Mr. 
Tierney came here you acknowledged that for the last so many 
years there has been no movement forward.
    Ms. Rosenberg. I did, yes.
    Mr. Shays. Let me just finish this one question.
    Ms. Rosenberg. Let me say a pox on both your parties. I 
think the common interest calls for doing something on 
biological weapons and I don't think either party is pushing 
appropriately. I am not standing behind either one.
    Mr. Shays. Mr. Tierney asked if I was happy now. Let me 
have both of you respond.
    Ms. Smithson. I too have spent a fair amount of time in the 
company of individuals who served on the United Nations Special 
Commission inspections. One of the things they told me time and 
again, as well as the individual who went into Soviet 
facilities, is that literally the minute they walked in the 
door they knew they were in the midst of something that didn't 
walk and quack like a duck. In other words, they were in the 
middle of biological warfare facilities, and that is one of the 
most important things that these inspections may be able to 
tell us if we actually figure out the right way to do them.
    As for the application of the satellite assets and SIGINT 
and MAZINT and other types of capabilities, I fear your 
suspicions are probably correct. We may not be able to tell as 
much from those capabilities as we might have been for other 
types of weapons of mass destruction. And in terms of work that 
was done in our brainstorming sessions, one of the things that 
all groups of experts that sat around our table consistently 
pointed out is that if inspectors went in the door one of the 
things they would look for would be inconsistencies with a 
stated purpose. This would be waste treatment capabilities 
beyond the needs of the facility, containment capacities beyond 
the needs of the facilities or less than what they stated they 
needed, or other types of activities or capabilities at a site 
that simply didn't fit with what they said they were doing, in 
their multiple ways that these experts from industry, from 
research institutions believed that this could be tracked 
through monitoring procedures. We just need to work harder to 
figure that out.
    Mr. Shays. Dr. Zelicoff, do you want to make a comment? Did 
you forget what it was that you wanted to make? It was a while 
ago.
    Mr. Zelicoff. I don't think so. I have to respond to 
several things that Barbara said because I think we are going 
down a path----
    Mr. Shays. You have to use last names. I am not on a first 
name basis, so I am forgetting who Barbara is.
    Mr. Zelicoff. Dr. Rosenberg.
    Mr. Shays. I'm sorry, I would like to be on a first name 
basis with the doctor, but not yet.
    Mr. Zelicoff. We are going down a path that I don't think 
is particularly useful for the work of the committee. When I 
was practicing medicine we had a diagnostic tool that was 100 
percent likely to find a disease, and it was called the 20-20 
retrospectroscope. We would practice it all the time, and I am 
afraid that is what we are hearing right now with regard to the 
Iraqi UNSCOM program. Let's be clear, but for the defection of 
Kamel Hassan we would not have had any idea of where to look 
and what to look for.
    Mr. Shays. I might say he was a whistleblower that had his 
head chopped off. Disincentive to whistleblowers.
    Mr. Zelicoff. That is correct. But even if it were true 
that we could go into a facility and smell something rotten, I 
want you to consider that biotechnology has advanced enormously 
in just the past 5 years. I suspect that if the Iraqis are 
carrying out a biological weapons program or if the Russians 
are carrying out a biological weapons program, they are not 
doing it like they did it even 5 years ago. Large scale 
fermenters, facilities for waste treatment, all of that is 
passe. It is completely irrelevant and this is simply because 
of the advances in the modern tools of biotechnology which 
require no large scale facility, don't require any special kind 
of equipment and could easily be done in a laboratory that 
would be a tenth the size of this room. Indeed, the Russians in 
particular have adopted what they call a just in time 
philosophy for biological weapons. They no longer brew up large 
batches of anthrax in enormous fermentation facilities. Rather, 
if the need should arise, the Russians plan to make their 
biological weapons en route to the front on rail cars. Small 
facilities can take tiny amounts of biological material, a few 
organisms, and have hundreds of pounds of organisms like 
anthrax in just a number of days.
    Now let me return to something Mr. Schrock said because I 
think this is the way the committee ought to look at the 
utility of a measure being proposed in the current chairman's 
text. Whenever a measure takes place, it is very much like a 
medical diagnostic test. So I will give you an analogy that I 
think is apropos here. That is to imagine doing a cardiac 
stress test on everybody sitting up there. I will lay you 
dollars to doughnuts, and that would include the people sitting 
along the wall, that at least one of you will have a positive 
cardiac stress test. Does that mean that person has coronary 
disease? Absolutely not, because the test has about a 5 percent 
false positive test. So if you do it 10 or 20 times it is 
improbable that you not get a positive even though the person 
does not have a coronary disease.
    I state this to emphasize an important point. When you 
carry out a measure or combination of measures and call those 
measures a protocol, there are three possible outcomes. The 
protocol could make the treaty better. The protocol could have 
no effect whatsoever on the treaty. The protocol could make the 
treaty worse. How could it make the treaty worse? By generating 
numerous false positives that both undermine the political 
consensus for the treaty as well as undermine the technical 
validity of those tests. This is precisely why Ambassador 
Mahley referred to certain measures that could be useful for 
increasing confidence but they do not meet the standards that 
we associate at least minimally with verification.
    In particular, I think I want to summarize the one point 
that I think everybody on the panel agrees on. We can make the 
Biological Weapons Convention and the world a much better place 
if we can somehow enhance disease monitoring. I think that is 
obvious how that will help public health. But to address Mr. 
Schrock's point, will it verify the convention? No. However, on 
those rare occasions, like what happened in Sverdlovsk in 1979, 
when there is an accident or an experiment gone awry, or even a 
potential test of a biological weapon, should disease take 
place in either animals, human or even in plants, I am as 
confident as I can be about anything in science in saying that 
I am quite certain that the tools of modern epidemiology can 
separate a naturally occurring event from a man-made or 
intentional event. Will that verify the treaty? No, because 
those episodes are rare. In fact to the best of my knowledge, 
we have only had one. However, what it will do is set us down 
the path of enhancing disease monitoring, which will indeed 
complicate the activities of someone who wants to violate the 
treaty because ultimately they will have to test.
    Mr. Shays. Interesting point, but if we are disease 
monitoring then the disease has already taken root.
    Mr. Zelicoff. Correct.
    Mr. Shays. Mr. Tierney, you have the floor for as much time 
as you want.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for having 
these hearings. I will just ask the chairman one question. I am 
a little late in getting here and I apologize for that. First 
of all, have the testimonies of Ambassador Sheaks and 
Ambassador Mahley that were submitted for the panel that did 
not occur, have they been put on the record yet and, if not, 
may we by unanimous consent put them on the record?
    Mr. Shays. Sure, we will put them on the record; just note 
that they weren't put under oath but the testimony is obviously 
submitted by them and they will be put on the record. Without 
objection, so ordered.
    [The prepared statements of Ambassador Sheaks and 
Ambassador Mahley follow:]
[GRAPHIC] [TIFF OMITTED] T0137.042

[GRAPHIC] [TIFF OMITTED] T0137.043

[GRAPHIC] [TIFF OMITTED] T0137.044

[GRAPHIC] [TIFF OMITTED] T0137.045

[GRAPHIC] [TIFF OMITTED] T0137.046

[GRAPHIC] [TIFF OMITTED] T0137.047

[GRAPHIC] [TIFF OMITTED] T0137.048

[GRAPHIC] [TIFF OMITTED] T0137.049

[GRAPHIC] [TIFF OMITTED] T0137.050

[GRAPHIC] [TIFF OMITTED] T0137.051

    Mr. Tierney. Thank you. Is there some indication that the 
Ambassadors will be with us soon so they can testify before the 
committee?
    Mr. Shays. Yes, they asked for a postponement until the 
administration is totally certain in what direction they want 
to head and they feel that will happen in the next few weeks. 
And let me say to the gentleman, we will call them before the 
committee.
    Mr. Tierney. Thank you. My concern is of course this will 
be at least the third instance of when this administration has 
unilaterally pulled back from an international commitment that 
people in other countries thought they had some right to rely 
would at least be consulted and have the issue discussed with 
them before such action was taken. You have the Kyoto Accords 
and the national missile defense situation and now this. I 
would like to see us have a more cooperative attitude and 
relationship with people in dealing with an international 
respect for our own credibility and for the sake of trying to 
move forward on some of these.
    I get the sense, Mr. Zelicoff, that you don't feel that any 
protocol is useful in this or am I overstating the case?
    Mr. Zelicoff. Yes, I'm sorry you weren't here earlier. You 
are overstating the case. I do believe that a protocol that 
focuses on challenge inspections for specific cause as opposed 
to routine random inspections for no cause at all.
    Mr. Shays. Could I ask you to defer? Don't be offended by 
someone. A Member is in many places and I don't want to 
discourage a Member from asking any question if they weren't 
here. I just want to say to all the panelists this gentleman 
works very hard and he may ask a question and we'll just repeat 
it. And frankly it takes me three times to understand it, so it 
is good reinforcement for me.
    Mr. Zelicoff. Thank you. And the second item, Mr. Tierney, 
was enhanced disease surveillance, and I believe that would 
make a very credible protocol.
    Mr. Tierney. As that was just discussed--while you are 
saying that, I have the same thought the chairman had and that 
is sort of after the horse is out of barn and a little bit 
tough in doing as much good collectively in that. Going back to 
your first issue, how do--is the only way I'm going to know to 
challenge it--how am I going to make a challenge if I don't 
have any information from inspections or other activities?
    Mr. Zelicoff. Through the usual means, which tend to be 
national technical means or some sort of evidence that an 
accident has taken place. It is a tough problem.
    Mr. Tierney. Again, a situation would have to occur, an 
accident or something like that, to give us an indication.
    Mr. Zelicoff. I wouldn't rule out the possibility of 
intelligence identifying a site that is high probability for 
violation.
    Mr. Tierney. Dr. Smithson, do you agree? Is that your 
position also? Do you have other reasons or other ways that you 
think we might move forward on this?
    Ms. Smithson. The groups of experts that sat around the 
Stimson Center's table from industry, from research institutes, 
from academia, from defense contractors and also veterans from 
various types of inspection activities would all advise that 
this chairman's text be rejected simply because it's not strong 
enough to do what we would like for it to do. However, they 
would also ask that the U.S. Government and U.S. industry go 
forward with rigorous field trials and additional technical 
research to ascertain what can be done. And two of those 
groups, those from academia and from industry, strongly 
believe, in fact laid out their monitoring strategies for how 
inspectors could differentiate between legitimate facilities 
and those that might be cheating and to do this on a reliable 
basis.
    Mr. Tierney. Would they rely on inspections for this?
    Ms. Smithson. Absolutely.
    Mr. Tierney. Would it just be inspections for cause or 
interim inspections, periodic inspections?
    Ms. Smithson. It would be both types, challenge inspections 
if cause were demonstrated or if intelligence indicated there 
were cheating taking place as well as a more routine type of 
inspection. In fact, the defense contractors, academics and the 
industry groups all did not want this to rely solely on 
challenge inspections. They believe that routine inspections 
are needed.
    Mr. Tierney. For your own personal opinion on that, is 
there any way that this protocol could be saved if we extended 
out the date beyond November? Is it something that could be 
worked with and have a result that was more in line with things 
that would be acceptable for the group she talked about?
    Ms. Smithson. If I had a nickel for every time I heard 
someone say if we don't seize this window of opportunity all 
chance will be lost and we will lose the agreement, well, I 
would be a very wealthy woman. I don't believe that we need to 
hurry this thing and get it done by November. I would rather 
have us get it right than get it fast. And unfortunately, to do 
so will take more time and effort on the part of the U.S. 
Government and U.S. industry so, yes, this can be salvaged but 
not necessarily with the formulas that are currently on the 
table or the technologies that are currently being discussed.
    Mr. Tierney. Dr. Rosenberg, what do you feel about 
postponement versus moving forward with what is on the table 
now?
    Ms. Rosenberg. I would like to see the negotiations 
continue, but what I would like isn't the point.
    Mr. Tierney. No, but it is interesting and it helps.
    Ms. Rosenberg. I am familiar with the negotiators. I spend 
a lot of time over there and I know our allies are fed up with 
the whole process. They feel that they have been foiled at 
every turn by the United States. They have tried to make a 
strong protocol. The United States has insisted on weakening 
it. Now the United States says it is too weak. They just don't 
see any point in continuing this charade. So whether it is 
going to be possible to continue I have very strong doubts at 
this stage, and that is why I think we should take what we can 
get now if possible.
    I also want to comment on what Dr. Zelicoff said, at least 
if I understood him correctly, that a good protocol would be 
one that would concentrate on challenge inspections. I know 
this is widespread thinking in the government right now. I want 
to point out that challenge inspections are a very political 
mechanism, that there have been no challenge inspections under 
the chemical weapons inspections that has been enforced over 
some years and there is thought that maybe there never will be 
because the longer it is put off, it's also likely the more 
fear there is to bring a challenge.
    Second, there is also a mechanism for investigation of an 
alleged use of biological weapons. Under the United Nations 
there is a general resolution that gives the Secretary General 
the power to assemble experts and investigate a possible 
allegation. If it is not done that way, the only better way is 
to have a standing inspector and you can't have a standing 
inspector to do challenge inspections that doesn't do anything 
else. They would soon lose their expertise because they are 
going to happen once in 10 years, if ever. Therefore, for that 
reason alone you have to have what Amy called routine, but 
which is really a dirty word in negotiations. Never call 
biological weapons inspections routine. They are random 
inspections but not routine.
    Mr. Tierney. Could you just expand a little bit on what 
some of the demands that the United States made were that 
weakened this to the point where now it is in a difficult 
situation?
    Ms. Rosenberg. Well, one of them was the trigger, the 
criteria for declaring defense facilities. Our allies would 
have liked to have had all defense facilities declared, just at 
least they exist. But the United States objected to that. The 
chairman's text therefore requires only declaration of a 
certain kind of defense facilities and only those that have 
more than 15 full-time employees. There are a lot of outputs 
built into the chairman's text at the insistence of the United 
States. I still think that the chairman's text concentrates on 
the most important sites, but it leaves out others that I think 
should be declared, and I don't see any way in which that is 
going to happen in the foreseeable future.
    Mr. Tierney. Are there others?
    Ms. Rosenberg. There are other aspects, too. Our allies the 
British, who have been the prime movers here as friends of the 
Chair on compliance measures, have wanted a declaration of 
production facilities. The United States was pretty much going 
along with that until just the last couple of months in which 
we pulled our support of that. And that is what has left 
vaccine facilities hanging out there. As Dr. Woollett pointed 
out, they are being singled out. We would agree with PhRMS that 
it would be much better to have to require declaration of all 
the production facilities, including vaccine, without singling 
them out as some special case and of course have this kind of 
declaration be a broad but shallow declaration which at least 
covers all the kinds of facilities without delving too deeply 
into their possibly confidential information. We would support 
that. But the question is what about other parties. The 
chairman has tried to make a compromise text that he can sell 
to everyone. There is the problem.
    Mr. Tierney. Thank you. Dr. Woollett, is this the type of a 
protocol that we should enter into now and then look for a 
second round of negotiations?
    Ms. Woollett. No, I don't believe it is. I think there is 
an undue focus on capability and we shouldn't question at all 
the vast majority of the worldwide capability in pharmaceutical 
and biotechnology is in the United States. And we don't believe 
that legitimate capability should be put on trial, particularly 
when we are having discussions along the lines of the 
experiences in Iraq. We knew they were up to something. Our 
facilities are undoubtedly the most capable in the world. If 
someone was going to accuse us of being up to something, there 
is no way we can overcome the lack of a presumption of 
innocence and prove to somebody so inclined that we weren't up 
to something. And I think this is why we are adverse to any 
form of nonchallenge inspection. We don't know what we have got 
to show in order to be off the hook. We can show what we do, 
but apparently that is not enough if somebody thinks there is 
something wrong in what they see in our facility, and this is 
the quandary we face. How do we avoid the false positives of 
any such inspection, and how do we avoid them slipping in some 
allegation that compromises that facility's ability to make 
life-saving medicines and those patients' confidence in those 
medicines that they are taking to keep them alive?
    Mr. Tierney. Colonel, do you want to make a comment on 
this?
    Colonel Kadlec. Sir, I have to put myself in the camp that 
believes it is better to get it right than something that is 
not right and basically may in the long term undermine what the 
original treaty was trying to do. I mentioned earlier that it 
was by no accident that the original drafters of convention 
could not put together verification measures, not because they 
did not want to but because it's hard. I am suggesting it is 
not any easier today. And clearly Dr. Rosenberg pointed out 
that there are certain exemptions and it clearly puts out the 
possibility that the proliferator would have a road map to, if 
you will, circumvent the measure of a protocol to pursue a 
biological weapons program.
    The other thing I would like to point out, and it gets back 
to the routine side of the house, which is we have a very 
capable military today and we don't go to war every day. We 
don't have routine wars, thank God. It would seem odd to me to 
say that we have to have routine inspections to maintain the 
proficiency of the inspectors. It seems like exercises could be 
done to maintain their proficiency, particularly in the realm 
of challenge inspections where it really does require a very 
expert cadre of people to look at it, look at a circumstance. 
So I would kind of suggest that routine again because of--to 
have routine inspections just because we need to train 
inspectors doesn't make sense, particularly as it was pointed 
out earlier that their likelihood of detecting or even 
deterring someone's prohibited activities is probably very low.
    The last point I would like to make and, again to capture 
something mentioned earlier, it goes back to--I think Dr. 
Smithson mentioned that you know it when you see it when you 
walk into a facility. I have had that experience on several 
occasions, certainly at Al Hakam in Iraq, and a couple of other 
places there. But one of the ones where I had a similar one was 
a large production facility that had an earthen covered bunker, 
that had high security, that had an explosive handling 
facility, that had within its culture collection pathogens of 
concern and also had special handling of waste, all what I 
would call certainly indicators of suspicious activity.
    But that facility wasn't in Iraq. It wasn't in Russia. It 
happened to be in Michigan. And clearly from my experience on 
the ground, there is a pretext probability here. I always kind 
of joke around with the idea that people are not ghost chasers 
because they don't believe in ghosts. It is because they 
believe in them. Certainly in these dual use facilities you can 
find yourself in a situation because of in this case where 
historically the production facility occupied an area that was 
formerly a state police facility and had all these unusual 
features about it, just because that is what was made available 
to them back in the 1950's. So I am cautious to sign up to the 
camp that says, well, we can tell it completely and it clearly 
gets back to this issue of intent that is extremely difficult.
    And I would like to maybe comment on a comment that Dr. 
Zelicoff made, which suggests that national technical means may 
be the way at this problem. I would suggest it is probably 
human intelligence because you do hope, as the chairman has 
said, a whistleblower or maybe an informer inside can provide 
you that kind of information that gives you the probability 
that facility or activity is certainly doing something 
nefarious.
    Mr. Tierney. Isn't that more likely to happen if you have 
some sort of regularized inspections as opposed to just 
challenge inspections?
    Colonel Kadlec. Well, sir, and again I will not use the 
Iraqi experience but certainly my experience in the department 
trial visits I participated in, that the facilities that we 
went to did an inordinate amount of preparation, both physical 
and, if you will, personnel preparation. So I doubt, and this 
was just for a routine visit, this was not for a challenge 
scenario. This was at a facility that was doing all legitimate 
work. So I can't help but believe that if a proliferator has a 
facility that would come up for a routine inspection, that they 
would probably go through a similar preparation phase that 
would probably involve more than just simple preparation, but 
active denial and deception methods that I think would if not 
fluster, confuse even the most experienced inspector.
    Mr. Tierney. On the whistleblower aspect of it, a 
whistleblower is going to need an opportunity to talk to 
somebody that they are not going to necessarily get if it is 
just on a challenge basis, but if it was on a periodic 
inspection basis then the opportunity that otherwise wouldn't 
exist it would be there.
    Colonel Kadlec. Well, that would be his first and last time 
to blow that whistle. I can guarantee you, as experienced in 
Iraq in the cases where an individual or others have kind of 
raised their hand and said something is wrong there, they 
haven't been seen again.
    Mr. Tierney. I think I understand pretty much what the 
issues are on that, but I would like to give Dr. Rosenberg a 
last crack at this to respond to anything you might have heard 
that you think you can enlighten us on.
    Ms. Rosenberg. On that question of whistleblowers, actually 
you don't have to have a whistleblower. In a random visit there 
will be interviewing of various workers in a facility, and one 
of the important--in fact a very important tool used by UNSCOM 
in Iraq was interviews in which they were able to pick up 
inconsistencies between things that different people said. This 
is the kind of thing you don't get a chance to do unless you 
have some kind of random type visit. What else can I say?
    Mr. Tierney. What do you say about the false positive 
argument? I get the feeling that you might be inclined--and 
correct me if I'm putting words in your mouth--you might be 
inclined to say go with what we have here and then if we can 
improve it, improve it later. Do you see harm coming from what 
is being proposed now and as part of that harm this concept 
that it might be a false positive?
    Ms. Rosenberg. I think when you get 143 countries together 
to set up a regime that they are all going to be subject to the 
chances of its being dangerous for any of them are vanishingly 
small. There are going to be false positives that will end up 
as accusations for some country, maybe the Netherlands let's 
say, is just not a credible argument. The problem is to have 
tight enough measures to get anything at all, when you are 
trying to get a consensus agreement on a treaty with all of 
these countries involved. So I think it is a red herring, the 
false positive.
    Mr. Tierney. You think that the document, at least as I 
understand it to be at this point in time, does not create that 
kind of a concern?
    Ms. Rosenberg. It has very strong restrictions on when you 
can actually go in to do a challenge. There has to be a vote by 
the executive council and the most--the easiest vote is a 50 
percent vote of those present and voting saying that the 
inspection can take place. That would be for any facility 
inspection would have to go through that.
    My group has done a study on looking at past votes in the 
Security Council and the General Assembly and so on and what 
the different blocs would do and we determined that a 50 
percent vote of this type would essentially never end up with 
any challenge inspection in the United States. It is impossible 
given the allies that we have. So it is--we opted for that as 
the best possible formula because it will allow inspections in 
the places that we might be concerned about but will not 
subject our industry or others to inspections that are really 
not meaningful or don't have a basis that's significant.
    Mr. Tierney. Thank you. I was intending to give you last 
word, but at the expense of Mr. Zelicoff not passing the 
cardiogram he was talking about earlier, I would let him to 
speak up.
    Mr. Zelicoff. I did pass the poly--the cardiogram. Did you, 
sir, is the question.
    Dr. Rosenberg can assert whatever she wishes, of course, 
but the science does not support her. In her last statement she 
slipped from talking about routine inspections into challenge 
inspections and the issue about false positives is not with 
regard to challenge inspections. In fact our national trial 
experience shows that with the properly phrased challenge 
inspection the probability of a false positive is routinely 
small. It is rather during routine inspections that false 
positives are a problem, and indeed in all of the U.S. national 
trial inspections a false positive was generated, which is to 
say two things: The team was either unable to convince itself 
that no illicit activity was taking place or if there were 
perfectly legitimate activities taking place the 
inconsistencies that normally occur in interviewing people who 
work at any site raise ambiguities.
    So it was interesting in the lessons learned in the U.S. 
national trial inspection experience, which I would be happy to 
submit for the record, what we learned from the people at each 
of these facilities, and these were disparate facilities, 
separated both in time and space, had nothing to do with each 
other. What we learned from each of the facilities was were a 
routine inspection to take place under the Biological Weapons 
Convention, they would send their staff members home and they 
would have a rehearsed set of statements to make delivered by 
one or at most a few administrators to avoid the ambiguities 
that took place, and that would be a perfectly legitimate 
response on the part of the facility.
    So in the routine inspections, as distinct from challenge 
inspections, the probability of a false positive, while Dr. 
Rosenberg may assert it is a red herring, in our national trial 
experience was almost a certainty.
    Mr. Tierney. Do you want to leave it at that, Doctor?
    Ms. Rosenberg. No, I won't leave it at that because I 
suspect that he didn't carry out his little trial according to 
the rules in the chairman's text at present, which gives all 
access to the discretion of the host government during a visit 
and prohibits the inspectors even from mentioning whether or 
not they were turned down for requested access in a visit. So 
there is hardly any way that I can imagine that any false 
allegations could come out of such a visit.
    Mr. Tierney. Well, thank you all very, very much.
    Mr. Shays. We will get the responses to this. This 
disagreement among panelist keeps us awake, so I thank you.
    I would like to ask unanimous consent that the following 
article from the Chemical Weapons Convention Bulletin, Issue 
No. 39, March 1998, provided by Professor Matthew Meselson, co-
director of the Harvard-Sussex Program on Chemical and 
Biological Weapons, Armament and Arms Limitation, be included 
in the record. And this is at the request of the minority. I 
think we had asked him and he couldn't make it. So we will do 
that without objection.
    I ask further unanimous consent to include in the record a 
letter to the subcommittee received from the Centers of Disease 
Control on the subject of global disease surveillance and the 
BWC. Thanks.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0137.052
    
    [GRAPHIC] [TIFF OMITTED] T0137.053
    
    [GRAPHIC] [TIFF OMITTED] T0137.054
    
    Mr. Shays. Did you want to make a comment? We are going to 
have some disagreement and I just want to make clear what the 
disagreement is, not that we will solve the disagreement.
    Mr. Zelicoff. I simply want to state our little trial 
inspections, as Dr. Rosenberg pejoratively referred to them----
    Mr. Shays. You're getting kind of uppity. You've got to 
loosen up here.
    Mr. Zelicoff. I get uppity when the truth of science is 
demeaned.
    Mr. Shays. I know, but then she gets uppity and I get 
uppity and we all get uppity.
    Mr. Zelicoff. Well, science is what science is and in the 
case of our little trial inspections, they occurred over 5 days 
involving 30 inspectors as well as dozens of people at 
facilities, and I think it discounts the efforts of all of the 
interagency participants to characterize them as little, 
insignificant. These are by far the most extensive trial 
inspections that have ever been done. Thank you.
    Mr. Shays. Thank you. I would like to know what is the 
extent of the disease monitoring vision under the Chairman's 
Text. Anybody want to jump in?
    Ms. Rosenberg. Yes, can I say something about that? That 
section of the Chairman's Text comes directly from the rolling 
text and it is totally unbracketed; that is to say, it has been 
totally agreed upon by the negotiators.
    Mr. Shays. Define rolling text.
    Ms. Rosenberg. It is the draft text which keeps getting 
updated. So at some point the draft text was taken which the 
chairman--and he tried to resolve all of the unresolved parts 
of it, but he didn't have to do anything with that section 
because it was already fully agreed. And the whole section on 
cooperative scientific and technological activities is focused 
on infectious activities, on surveillance, diagnosis, 
recognition, control, prophylaxis, and so on of infectious 
diseases. It sort of repeats itself over and over about 
supporting and promoting all of these activities. And the 
interesting thing is that not only does it say that countries 
should promote, that the parties of the treaty should promote 
these activities, but they have to declare annually what they 
have done to promote them, and there will be a cooperation 
committee that will read these annual declarations and be 
empowered to make comments or suggestions.
    Mr. Shays. I need a translation. The bottom line is, is 
there extensive monitoring in surveillance in the rolling text 
or are we basically ignoring this issue? And I open that up to 
you and then to others.
    Ms. Rosenberg. Well, the first point I think I should make 
is to clarify, the treaty itself is not proposing to monitor 
diseases and that no treaty should try to do that because 
infectious disease----
    Mr. Shays. Am I mixing the word ``monitor'' and 
``surveillance''?
    Ms. Rosenberg. No, I don't mean to make that distinction. I 
am saying it shouldn't be done under an arms treaty. I am 
saying it is a public health issue. If you try to carry out a 
public health measure under an arms treaty you will not find 
cooperation from all the groups and governments that you need 
it from.
    Mr. Shays. Let me respond to that. Whether or not you find 
cooperation, the issue is, is that necessary and helpful to 
have a good treaty?
    Ms. Rosenberg. It is very important and that is why the 
treaty has this section which calls upon its parties to do 
something on these problems and to report on what they have 
done. But the activities will not be carried out directly under 
the treaty organization, but will be left to the parties to 
work with the international organizations outside the treaty, 
but to meet the ends that are specified under the treaty, and I 
think everybody in the field recognizes that this is the only 
way to handle this if you want to get public health 
cooperation.
    That is why the World Health Organization and others have 
gotten together to make a proposal about how to carry out those 
goals that are specified in the treaty, and the parties who are 
negotiating have found--have welcomed this----
    Mr. Shays. Are you making an assumption that others would 
agree with? And then am I hearing you correctly? Are you saying 
that to make it part of the treaty means that information of 
health statistics will be less readily available?
    Ms. Rosenberg. Oh, absolutely. The World Health 
Organization is always willing to make information like that 
available.
    Mr. Shays. No. Listen to my question. What I was hearing 
you say, and I want to just make sure I heard you properly, was 
that the reason health information, health surveillance is not 
part of a treaty is that it might distort the type of 
information you get----
    Ms. Rosenberg. Yes.
    Mr. Shays [continuing]. On health statistics, and so I hear 
you saying health statistics. You don't want to bring it into a 
treaty because you want accurate health statistics. Are you 
saying that?
    Ms. Rosenberg. Right.
    Mr. Shays. Are you saying that?
    Ms. Rosenberg. I am saying that. Because you have to 
remember that when there is a serious outbreak in a country, it 
cuts off tourism, trade. India had a big problem when it had 
the plague break out a few years ago. It lost--millions of 
dollars in economic loss. So countries are not--especially if 
it might suggest that they perhaps violated an arms treaty. 
Perhaps there is an epidemic that somebody might think was due 
to a biological weapon.
    Mr. Shays. But, Doctor, what you are reinforcing in my own 
bias, and I admit it's a bias, there are all these reasons why 
we can't write a treaty that will really do the job. That's 
kind of where I am coming from. And I didn't start out that 
way. And you're making an argument that you can't--if you 
really want a treaty that works, it would strike me--and I 
realize, you know, and I acknowledge, you know, that something 
is out of the barn, but, still, that is going to be one basis 
for knowing if we have got a gigantic problem. You know, we see 
a distortion in health in a certain area, and we try to assess 
it, and we come to some conclusions. It's natural or not 
natural. But we want that information.
    Let me ask you this. First, let me let others comment to 
what you said, and then I'll ask the next question. Yes, Dr. 
Woollett.
    Ms. Woollett. It's an interesting parallel to transparency. 
We want people to be transparent. And what I'm noticing in what 
you've said is de facto is part of an arms control treaty, 
you're dissuading them, because it is in a context that has a 
certain supposition to it. And I think that's where the U.S. 
pharmaceutical biotech industry has a problem, because routine 
inspections become part of us being somehow checked up on for 
what we shouldn't be doing, rather than us affirmatively 
showing what we are doing, which is the true meaning of 
transparency. So there is actually a parallel in the 
surveillance side. The disease surveillance indeed should be 
done. We are not adverse to the world knowing what we do, but 
in the context of arms control, there is a context that can be 
very difficult to overcome.
    Mr. Shays. Any other comment, and then I'll----
    Ms. Rosenberg. So the advantage of the protocol is that it 
requires this to be done, but it doesn't actually do it. It 
allows countries to do it outside and then report on what 
they've done. That's why an organization like the World Health 
Organization is essential to carry out something like this, 
because it's the only health organization that every country 
feels they have some part in, they are members of and they can 
trust it to have their interests at heart.
    Mr. Shays. Dr. Woollett, do you want to make--anybody maybe 
a comment? Yes.
    Colonel Kadlec. Sir, I would like to, because it kind of 
gets back to maybe a point I made earlier but also I think is 
consistent with the theme here with regard to this protocol, 
that some of the more significant measures to strengthen, if 
you will, our ability to either detect or respond to these 
events, a possible event of use or even development, are going 
to exist outside the protocol and that they deal with global 
disease monitoring that is outside, if you will, the text of 
the protocol but certainly a very important supplement part, if 
not a foundation piece, to build a protocol on.
    And the same thing with intelligence. I mean, that's, 
again, one of these kind of just odd kind of situations. And, 
again, it runs counter to maybe some of the other experiences 
in some of the more conventional elements of arms control to 
date that you do look for more ancillary, outside the formal 
text kind of capabilities to help you pursue nonproliferation.
    Mr. Shays. That would argue, though, for not having to make 
a challenge, because they're not part of the protocol, so you 
couldn't count it as a challenge. That would argue for just 
being able to do it at will based on all of this ancillary 
information that you get. In a sense, it's a challenge, but you 
can't use it as a challenge.
    Am I speaking in tongues here?
    Colonel Kadlec. Well, no, sir. I think the point I would 
like to make is that outside information is what helps you go 
to a challenge scenario.
    Mr. Shays. I know, but it's--we're hearing one point, is 
that you don't need a challenge, and you shouldn't operate 
based on a challenge. And the other argument is there should be 
probable cause. Now, if it's not a part of the treaty--let's 
just deal with this issue of probable cause. If it's not part 
of the treaty, this ancillary information, could you use it as 
a probable cause? And it would strike me you can't, because 
it's not part of the treaty process. And maybe that's an 
assumption I'm making that's incorrect.
    Colonel Kadlec. I would suggest otherwise.
    Ms. Woollett. Yeah. My understanding is that any evidence 
that you have that you're willing to declare is a basis for the 
due process, a bona fide allegation you can indeed use.
    Now, of course, in declaring it, there may be other 
concomitant liabilities to where you got it from, but the basis 
of knowing that there is a reason to go for a challenge, 
putting the evidence on the table and going ahead with the 
challenge, you're not limited at all to where you got the 
information from.
    Mr. Shays. You raised the question of capability and--and 
versus intent. Tell me, the United States potentially has what 
world's capability? Is it 40 percent, 50?
    Ms. Woollett. It's into the 90's, depending on where you do 
the cutoff in terms of sophistication. But of the most--I mean, 
for instance, if we look at pharmaceutical R&D anticipated for 
this year by our companies alone, something like $30 billion is 
the total expense, of which the high 20's are in the United 
States. The vast majority of the most sophisticated capability 
unquestionably is in this country.
    Mr. Shays. With the gross domestic product of Europe being 
larger than the United States, I mean, the whole union, you're 
saying that our capability would dwarf Europe's?
    Ms. Woollett. In terms of R&D and where the pharmaceutical 
and biotechnological industries are doing their investments. 
Now, the three principal markets are Europe, United States, and 
Japan.
    Mr. Shays. OK. But then let me--so should--is R&D more 
important than production in terms of----
    Ms. Woollett. Well, it depends where the cutoff comes. R&D 
is critically important in terms of confidential business 
information. That's your future products. Production is the 
high volume end, if that's where you do the cutoff in terms of 
the largest amount of----
    Mr. Shays. OK. Let's just do production. Is production 50/
50? I mean----
    Ms. Woollett. I would have to double-check. It's still the 
majority is the United States, but----
    Mr. Shays. But with the rest of the world, then, we still 
are 50 percent plus?
    Ms. Woollett. I would say that Europe, United States, and 
Japan have the vast majority.
    Mr. Shays. Take--so is Europe equal to the United States? 
And the reason is----
    Ms. Woollett. Not equal, but it's going to be high, too. It 
would be targeted, but--certainly on terms of vaccine 
manufacturer, there's four principal companies, two in the 
United States, one in France and one in Belgium.
    Mr. Shays. Dr. Rosenberg, my visits, obviously, have been 
guided by the previous administration, but either 
administration--so I've met with some of our allies, and I have 
not heard the--and I'm sure it exists. So it's--the point you 
made about our allies' feeling that we've been dragging our 
feet in saying we're weakening the protocol and then we 
criticize it for being so weak, I know there's some who feel 
that way, but it's not your testimony that all our allies feel 
that way? I mean, there is----
    Ms. Rosenberg. Oh, yes. I can testify that they all do.
    Mr. Shays. OK.
    Ms. Rosenberg. I----
    Mr. Shays. You leave no one out? Australia you put in 
there?
    Ms. Rosenberg. I would--oh, no. They are definitely in 
there. Yes. Australia, Canada, New Zealand, all of Europe, the 
EUs, the strongest group.
    Mr. Shays. And it would be your testimony before this 
committee that they feel the United States has consistently 
over the past few years weakened the protocol?
    Ms. Rosenberg. Yes. You know, worse than U.S. demands for 
specific weakening points is the fact that the United States 
has not stood together with the rest of the western group, 
which means that the western group was perceived to be split by 
other countries such as China. We now stand with China, Libya, 
Iran, Cuba and Pakistan. Those are the five dissidents with the 
United States.
    Mr. Shays. Yeah, but for different reasons.
    Ms. Rosenberg. Well, no, not for different reasons. For 
objecting to the protocol. Pretty much for the same reasons. 
And the problem is that if the western group had been together 
they could have pushed through certain points that would have 
made a stronger protocol, but because everyone saw that the 
United States was not with them, it was not possible to do that 
and other points of view carried the day in many cases. So the 
United States has weakened the protocol in a number of 
different ways.
    Mr. Shays. If anyone wants to jump in, I just want to ask a 
few more questions. Is there any--yes?
    Mr. Zelicoff. I was a member of the U.S. delegation from 
1992 through 1999. I sat in on every western group meeting, and 
there was not quite an unanimity of opinion, sans the United 
States, that we were the treaty busters. The Japanese have 
violent disagreements with the rest of the western group as 
well, and I think it goes largely to where pharmaceutical 
capabilities are located as well as advanced R&D.
    Mr. Tierney. Dr. Rosenberg, where would you say most 
objection comes from, the commercial end or the national 
security end of things?
    Ms. Rosenberg. In the United States?
    Mr. Tierney. Yes, ma'am.
    Ms. Rosenberg. National security, although they love to 
hide behind industry. We know that--I mean, the classical case 
was the negotiation of the Chemical Weapons Convention, where 
the industry was very pro-treaty, and the United States was 
still blaming some of its positions on industry, when industry 
was saying, oh, no, we disagree with you. We want these 
measures. They've continued to do that with the pharmaceutical 
industry, and I've been very happy whenever there's been any 
resistance on the part of industry. But I don't believe that's 
where the real problem lies.
    Mr. Tierney. Thank you.
    Mr. Shays. Dr. Rosenberg, you talked about our allies and 
where they stand. Who represents the greatest threat in terms 
of the production and use of biological agents?
    Ms. Rosenberg. Which countries? None of our allies.
    Mr. Shays. None of our allies. Correct. So who are they?
    Ms. Rosenberg. Well, you know, there's the usual 10 or 12 
that are always cited.
    Mr. Shays. And why don't you cite them for me. Who----
    Ms. Rosenberg. Which of the countries are?
    Mr. Shays. Yeah.
    Ms. Rosenberg. North Korea, Syria, China, Israel, maybe 
Libya. I'm not sure whether Libya is in there right now. Well, 
India and Pakistan have occasionally been mentioned. I think 
they're pretty uncertain. It's the usual suspects, in other 
words.
    Mr. Shays. We've left out one or two.
    Ms. Rosenberg. Right.
    Mr. Shays. But the bottom line to it is that they are all--
the irony is that I don't think you fear the United States 
using----
    Ms. Rosenberg. Absolutely not.
    Mr. Shays [continuing]. Biological--and I didn't mean it to 
sound facetious. You don't. The irony is that we're negotiating 
with--in the treaty with people that we know for a fact produce 
it, and some have used it, and it's wild to be in an 
environment where I hear them speak and--frankly, very 
sanctimoniously--and yet we know that they're, as we speak, are 
involved in the production of biological agents and believe 
they would use them.
    So what I wrestle with, knowing what I know as a Member of 
Congress--and there is more that we could put on the table that 
we can't. I mean, there is more that we know that we could put 
on the table, but we can't--we are dealing with people who we 
know have the capability and the interest and potentially the 
inclination to use biological agents. Those are the groups that 
I'm most concerned with, and yet I'm wondering if we have the 
capability with a treaty to prevent them from debating it, you 
know, research, doing the production and so on, because I side 
on the equation that says it's not the gigantic plant, but it 
is--you could do it in trucks. You can move trucks. You can do 
it in tents.
    So get me beyond that. If I can get beyond that, then I 
would be a lot more receptive to your eagerness to see this 
treaty move forward.
    Ms. Rosenberg. Well, first of all, it's interesting that 
many of these countries that are suspected are involved in the 
negotiations, and I think that's a big advantage, because they 
obviously don't want to admit their interest in biological 
weapons----
    Mr. Shays. Could I----
    Ms. Rosenberg [continuing]. And they therefore are not 
going to block the treaty because----
    Mr. Shays. But that to me is the hypocrisy of it all.
    Ms. Rosenberg. Hypocrisy, who cares, as long as we are able 
to get onsite or, you know, as long as we're----
    Mr. Shays. What good does it do to get onsite if they move 
the truck, if they move the tents, if they shut down the--see, 
because my--this is sincerely asked. It's right--and it's maybe 
my ignorance, but I can see the capability--if you were trying 
to put out incredible amounts of this, you would build a big 
facility, and it would have a signature to it, and you would 
all know. But a country that simply has more interest in 
terrorist use, in production over years but low output but over 
time it adds up, they have the capability, and the treaty in my 
judgment would be a joke----
    Ms. Rosenberg. Well, you don't----
    Mr. Shays [continuing]. For preventing those.
    Ms. Rosenberg. Excuse me. You don't add up biological 
weapons, because they don't--most of them don't have that long 
a shelf life.
    Mr. Shays. That's true.
    Ms. Rosenberg. And to do any----
    Mr. Shays. Other than something like anthrax.
    Ms. Rosenberg. Right.
    Mr. Shays. Well, but--no. With all due respect, we----
    Ms. Rosenberg. Yes.
    Mr. Shays [continuing]. Are having all our military have 
vaccines on that, so it's not a minimal concern. Anthrax seems 
to be the one that most have the biggest concern about.
    But, at any rate, your point is, some are, some aren't----
    Ms. Rosenberg. Well, my point is that I think there has 
been a lot of hype about the terrorist possibilities of bathtub 
production and that kind of thing. I think that producing--that 
developing and producing biological weapons is not an easy 
task. You might be able to produce it in a boxcar, but you have 
to have tested it somewhere before. You've got to have a lot of 
knowledge about it. You have to know how to deliver it. You 
have to know that it's going to stay viable as an aerosol. 
There is an awful lot of information you need. It's not simple.
    And, you know, Russia, which was a problem--I mean, the 
Soviet Union, had tens--dozens of tons of smallpox and other 
agents stockpiled. Those are the problems that we have--we want 
to know about, and we didn't. So----
    Mr. Shays. Yeah. I----
    Ms. Rosenberg [continuing]. You know, the boxcar that 
hasn't bothered to do testing somewhere, that hasn't gone 
through a whole process of development, you know, is--it may be 
a little--has a little bit of danger involved, but it's minor 
compared to the big time.
    Mr. Shays. OK. I will--I see some hands going up. Mr. 
Gilman is here, and I would call on him if he would like to be 
recognized.
    But I do want to say to you, it may be only a few years 
that I've been involved, this committee and me in particular, 
in the whole issue of this protocol, but it has been years and 
years that I've been involved in the issue of terrorism. And I 
can't emphasize enough my concern. I believe there will be a 
biological, chemical or nuclear attack on the United States. I 
have no reluctance in saying it. It's not a question of if it 
will happen. It's a question of when and where and, obviously, 
the magnitude.
    And, you know, this kind of treaty, in my judgment, will 
not stop any of the kind of concern that I particularly have. 
And--but it's not to say we shouldn't be trying to make a good 
treaty. I just have not yet in my own mind seen how I would--if 
I were President of the United States, whether it was Bill 
Clinton or Mr. Bush--since I said Bill Clinton, I should say 
George Bush--President Clinton, President Bush--I don't know 
what I would be directing my people.
    Let me just let you all make some comments, and we're ready 
to kind of draw it to a conclusion here. But, yes?
    Colonel Kadlec. Sir, I just wanted to capture the point 
that you made earlier, that it is one of the paradoxes of a 
potential protocol to a--a protocol to the BWC that if you 
comply with the protocol, it somehow confers legitimacy to you 
potentially as a proliferator and, again, may obviate some of 
the other things that we are using today, some of the other 
tools that we have in our toolbox in terms of multilateral 
export controls that help us put a cap on this or delay it.
    The second issue is the issue of whether or not there has 
been, as Dr. Rosenberg put out, a reluctance on the basis of 
national security or the industry--the pharmaceutical industry 
and their resistance to a protocol. And I'd just point out that 
it's very hard to divide the two today because of the role of 
economics in our national security, but more significantly to 
the point you just made about when you look at the role of 
terrorism and domestic response, how much we rely upon the 
pharmaceutical industry to provide those products that we need 
to use to either defend or treat our populace, should something 
happen. And I just throw that word of caution out.
    Mr. Shays. Any other comment?
    Mr. Zelicoff. We have a very bad problem with biological 
weapons, and it's certainly possible to take the biological 
weapons proliferation problem and make it worse. Dr. Rosenberg 
is correct when she states that it's necessary to test 
biological materials to see if they will work as weapons, but 
that depends on the scenario. But, more to the point, that 
testing has already been done. Stockpiling is no longer 
necessary, because the parameters for growing materials into 
pound or ton quantities are also very well known and can take 
place in a matter of a few days or a few weeks.
    And then, finally, whenever you think you've got your hands 
around the biological weapons problem and think that things 
like onsite inspections, routine visits are going to solve the 
problem, always consider the case of smallpox. Here is an agent 
that spreads perfectly well from person to person. So all of 
the criteria that Dr. Rosenberg laid out earlier, such as large 
quantities, aerosolization, need to know whether it infects, 
none of those things obtain in the case of smallpox.
    Were a country to desire to undertake a terrorist event 
with biological weapons, smallpox is arguably the way that they 
would do it, and the facility necessary to produce it would be 
an Erlenmeyer flask that looks something like this or certainly 
about that size. And you can create enough material to infect a 
dozen or two dozen people, and then they will do the chain of 
dispersal for you.
    And so this is what the American Federation of Scientists 
is putting out. The technologies of the 1950's that required 
large fermentation vats have been supplanted by the modern 
tools of biotechnology and a recognition that we have 
infectious agents that undermine all of the tenets that are put 
down in the treaty as signatures or markers of something 
adverse taking place. None of that would obtain in the real 
world.
    Thank you.
    Mr. Shays. Thank you.
    Yes, Dr. Woollett.
    Ms. Woollett. I would just like to comment that if there is 
the prevailing assumption, which seems to be fairly broadly 
held, that we have signatories to the existing Biological 
Weapons Convention who don't comply with it, are we actually 
expecting them to comply with the protocol either? What are the 
checks? Are there any checks? It seems to be a real leap of 
faith that if they don't play cricket on one treaty they 
certainly will on another.
    Thank you.
    Mr. Shays. I'm ready to close. I know, Mr. Gilman, that you 
have a deep interest in this issue, but you're kind of coming 
at the conclusion. I don't know if you want to say hello or 
good-bye or hello and ask your question.
    Mr. Gilman. Well, Mr. Chairman, I want to thank you for 
conducting what I consider to be a very important issue as we 
address all aspects of terrorism.
    I just would like to question the panelists. Is there any 
central authority in our government that is reviewing the 
possibility of biological and chemical weapons? Who is in 
charge of this in our government? Is there any--we found in 
exploring terrorism that we had a great deal of--a 
proliferation of responsibilities, and there was really no 
central--good central issue, and the chairman that had been 
conducting hearings, I think we found some 40 different 
agencies that had responsibilities. What about the biological 
and chemical weapons' situation? Is there any central 
authority? I'm asking the entire panelists.
    Mr. Shays. Four are smiling. One is putting his hand over 
his nose. And three are smiling, one is smirking. Which one do 
you want to pick?
    Mr. Gilman. I'll go right down the line, starting here with 
our Mr.----
    Mr. Shays. Let me just say it is an interesting question 
for you all outside of--directly outside of government now to 
tell us who you think would be responding.
    Mr. Gilman. Mr. Zelicoff, do you want to respond?
    Mr. Zelicoff. Is your question with regard to who is 
developing policy or who responds in the case of an attack?
    Mr. Gilman. Who is in charge?
    Mr. Zelicoff. I am not the person to answer that question.
    Mr. Gilman. Implementation, is there anyone in our 
government in charge of this?
    Mr. Zelicoff. The last time I looked, there was a chart 
that had a whole bunch of agencies connected with various 
strings of higher--but I don't know who is in charge now.
    Mr. Gilman. Ms. Smithson.
    Ms. Smithson. Volunteering has its risks. I'm not sure I'm 
volunteering here, but it's fairly new in the Bush 
administration, but I think it's accurate and traditional to 
say that the National Security Council would be in charge of 
policymaking here, Bob Joseph and Rich Falkenrath being the two 
individuals that have this portfolio principally at the NSC.
    The Ambassador to the U.S. negotiations is Don Mahley. He 
works out of the State Department.
    The intelligence community, the Department of Defense and 
the Commerce Department also have very important roles to play 
in policy formulation here, as does the Department of Energy, 
because they have a number of assets and have had members on 
our delegation for quite some time.
    So, in a certain sense, it's somewhat similar to the 
organization to address terrorist problems. There are a lot of 
agencies at the table here.
    Mr. Gilman. But would you say it would be important to have 
some central authority to produce overview of all of these 
problems?
    Ms. Smithson. I'd always advocate having central authority 
in our government, but find as a student and observer of our 
government's policymaking process that the individual who has 
the title for having central authority sometimes doesn't 
necessarily find himself or herself able to fulfill that role, 
because everybody is grappling for power.
    Mr. Gilman. Thank you.
    Dr. Rosenberg.
    Ms. Rosenberg. Well, this is not an area that I've 
specialized in, but I do read some of the literature on it, and 
I observe that all the experts outside of government have 
complained rather bitterly that the program is much too 
diffuse, there is no central authority, and there is a 
desperate need to do something about that if we are going to 
have a meaningful response to bio or chemical terrorism.
    Mr. Gilman. Thank you. Dr. Woollett.
    Ms. Woollett. I think it has been fairly conspicuous that 
there is no central authority. We within the industry have 
worked with whomever is available whenever they are available, 
but one very apparent deficit is those agencies with the most 
technical expertise are the very few that are absent. For us, 
that would be the U.S. Food and Drug Administration and also 
those players at USDA that have expertise in the infectious 
diseases. Even CDC hasn't been actually very conspicuous at 
all. So it's been sort of policy devoid of the science and the 
technical, which ultimately will be the limitations on this 
protocol.
    Thank you.
    Mr. Gilman. Colonel Kadlec.
    Colonel Kadlec. Sir, I don't think I have much more to add 
than what has been offered here today. I think clearly that it 
seems like the group senses that there doesn't seem to be a 
focal point for this issue.
    Mr. Gilman. And, Mr. Chairman, just one other question. If 
we were to have some administration of people come before us on 
this issue, what questions should we ask the administration 
witnesses about the U.S. position on the BWC protocol when they 
do appear before our subcommittee? Can anybody----
    Mr. Shays. One or two choices. What would be the questions 
we should ask?
    Mr. Gilman. We'll start again right down the line. Mr. 
Zelicoff.
    Mr. Zelicoff. If you had just one or two questions, I think 
the questions that I would ask are, should we move ahead with 
the current protocol as it is, or should we try to negotiate 
something that might be either more effective or more 
responsive to the needs of the United States?
    And, second, I would specifically ask whether or not the 
administration has a position on strengthening, either directly 
or indirectly, the limited capability worldwide for disease 
monitoring.
    Mr. Gilman. Dr. Smithson.
    Thank you, Mr. Zelicoff.
    Ms. Smithson. Actually, the questions you posed to this 
panel and the other witnesses I think were quite good ones. 
Perhaps I could add to that list. Given the widespread 
expectation that the Bush administration will reject the 
chairman's texts, what steps forward do they have to--in mind 
to keep this process going guard constructively? And, second to 
that list, how will they turn the sour relationship with 
industry into a constructive one that helps create workable, 
meaningful monitoring procedures for this treaty similar to the 
relationship that existed between the U.S. Government and the 
chemical industry for working on the Chemical Weapons 
Convention?
    Mr. Gilman. Thank you, Dr. Smithson.
    Dr. Rosenberg.
    Ms. Rosenberg. In Geneva, the negotiations--the U.S. 
delegation has talked rather freely about its dislike of the 
present negotiating mandate and how they prefer a different 
one. I would find out what kind of a mandate exactly they would 
like to have and what kind of a treaty protocol might come out 
of such a mandate and how would they--how do they propose to 
keep our allies involved and participating in such an endeavor.
    Mr. Gilman. Thank you, Dr. Rosenberg.
    Dr. Woollett.
    Ms. Woollett. I think something along the lines of how will 
this protocol help global security and then in particular, 
commensurate with its costs with the United States, it will be 
undoubtedly focused on the United States. If it's not this 
protocol, what are the options they see for proceeding with a 
time line? I think a time line is critical. Thank you.
    Mr. Gilman. Thank you, Dr. Woollett.
    Colonel Kadlec.
    Colonel Kadlec. Sir, I would just offer one, and that is 
specifically one that is I think touched on by your 
subcommittee today, and that is, has the deterrence value of a 
protocol--of this particular protocol--this particular draft 
protocol.
    Mr. Gilman. Thank you.
    Thank you, Mr. Chairman. I want to thank our panelists.
    Mr. Shays. I want to thank the gentleman for coming, 
because I'm happy he asked the questions he did.
    Before we actually hit the gavel, is there any closing 
comment that any of you would like to make? We'd be happy to 
have that. Yes.
    Ms. Rosenberg. I just would like to encourage you to 
continue to pursue the question of surveillance for infectious 
diseases, although we didn't really get into it today. I think 
it's a terribly important issue from the point of view of 
biological weapons and public health in general.
    Mr. Shays. The two times I've gone to Geneva I've met with 
the World Health Organization, because I happen to agree with 
you. I fear the spread of disease in a way that I didn't a few 
years ago, both natural and man-made.
    You all were five excellent witnesses. This was a 
fascinating panel, and I liked a bit of disagreement that you 
had, and I learned from all of you. So--and I think the rest of 
the committee did, and we will be transcribing this in 3 days, 
and you will actually be looking at the text of it. It will 
help us with our next hearing. So thank you so much.
    This hearing is adjourned.
    [Note.--``Procedures for Investigating Suspicious Outbreaks 
of Infectious Disease in a Noncooperative Environment,'' by 
Jonathan B. Tucker may be found in subcommittee files.]
    [Whereupon, at 4:30 p.m., the subcommittee was adjourned.]

                           <greed-d>



</pre></body></html>
